<html>
<title> - LEGISLATIVE HEARING ON H.R. 1037, H.R. 1098, H.R. 1168, H.R. 1172, H.R. 1821, H.R. 1879, AND H.R. 2180</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                   LEGISLATIVE HEARING ON H.R. 1037,
                    H.R. 1098, H.R. 1168, H.R. 1172,
                  H.R. 1821, H.R. 1879, AND H.R. 2180

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2009

                               __________

                           Serial No. 111-24

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
49-922                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

THOMAS S.P. PERRIELLO, Virginia      JOHN BOOZMAN, Arkansas, Ranking
JOHN H. ADLER, New Jersey            JERRY MORAN, Kansas
ANN KIRKPATRICK, Arizona             GUS M. BILIRAKIS, Florida
HARRY TEAGUE, New Mexico

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                              May 21, 2009

                                                                   Page
Legislative Hearing on H.R. 1037, H.R. 1098, H.R. 1168, H.R. 
  1172, H.R. 1821, H.R. 1879, and H.R. 2180......................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    23
Hon. John Boozman, Ranking Republican Member.....................     2
    Prepared statement of Congressman Boozman....................    23
Hon. Thomas S.P. Perriello.......................................     5
    Prepared statement of Congressman Perriello..................    24
Hon. Harry Teague................................................    14
    Prepared statement of Congressman Teague.....................    24

                               WITNESSES

U.S. Department of Veterans Affairs, Keith M. Wilson, Director, 
  Education Service, Veterans Benefits Administration............    17
    Prepared statement of Mr. Keith M. Wilson....................    37
U.S. Department of Labor, John M. McWilliam, Deputy Assistant 
  Secretary, Veterans' Employment and Training Service...........    18
    Prepared statement of Mr. McWilliam..........................    39

                                 ______

American Legion, Mark Seavey, Assistant Director, National 
  Legislative Commission.........................................     9
    Prepared statement of Mr. Seavey.............................    32
American Veterans (AMVETS), Raymond C. Kelley, National 
  Legislative Director...........................................    11
    Prepared statement of Mr. Kelley.............................    33
Coffman, Hon. Mike, a Representative in Congress from the State 
  of Colorado....................................................     3
    Prepared statement of Congressman Coffman....................    25
Disabled American Veterans, John L. Wilson, Associate National 
  Legislative Director...........................................     8
    Prepared statement of Mr. John L. Wilson.....................    30
Paralyzed Veterans of America, Richard Daley, Associate 
  Legislation Director...........................................     7
    Prepared statement of Mr. Daley..............................    28
Wounded Warrior Project, Corporal Wade J. Spann, Alumni, USMC....    12
    Prepared statement of Corporal Spann.........................    35

                       SUBMISSION FOR THE RECORD

Filner, Hon. Bob, Chairman, Committee on Veterans' Affairs, and a 
  Representative in Congress from the State of California, 
  statement......................................................    40

                   MATERIAL SUBMITTED FOR THE RECORD

Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
  Economic Opportunity, Committee on Veterans' Affairs, to Mr. 
  Wade J. Spann, Alumni, Wounded Warrior Project, letter dated 
  May 26, 2009, and WWP responses................................    42
Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
  Economic Opportunity, Committee on Veterans' Affairs, to Mr. 
  Raymond Kelley, National Legislative Director, AMVETS, letter 
  dated May 26, 2009, and AMVETS responses.......................    43
Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
  Economic Opportunity, Committee on Veterans' Affairs, to Mr. 
  John L. Wilson, Associate National Legislative Director, 
  Disabled American Veterans, letter dated May 26, 2009, DAV and 
  responses......................................................    44
Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
  Economic Opportunity, Committee on Veterans' Affairs, to Mr. 
  Keith Wilson, Director, Office of Education Service, Veterans 
  Benefits Administration, U.S. Department of Veterans Affairs, 
  letter dated May 26, 2009, and VA responses....................    45
Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
  Economic Opportunity, Committee on Veterans' Affairs, to Mr. 
  John M. McWilliam, Deputy Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor, 
  letter dated May 26, 2009, and DOL responses...................    47


                   LEGISLATIVE HEARING ON H.R. 1037,
                    H.R. 1098, H.R. 1168, H.R. 1172,
                  H.R. 1821, H.R. 1879, AND H.R. 2180

                              ----------                              


                         THURSDAY, MAY 21, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:12 p.m., in 
Room 340, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Perriello, Adler, 
Kirkpatrick, Teague, Boozman, Moran, and Bilirakis.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs, Subcommittee on Economic 
Opportunity, hearing on pending legislation will come to order.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and that written 
statements be made part of the record. Hearing no objection, so 
ordered.
    Today, we have seven bills before us that would address the 
unique needs of our veteran population. The bills before us 
today seek: to expand the U.S. Department of Veterans Affairs' 
(VA) Work Study Program; increase the amount of educational 
assistance payments for individuals pursuing an apprenticeship 
or on-the-job training; provide veterans with training 
assistance in employment sectors in high demand; authorize the 
VA to post a list of organizations that provide scholarships to 
veterans and their survivors; expand the services offered by 
the Vocational Rehabilitation and Employment (VR&E) Program; 
extend Uniformed Services Employment and Reemployment Act 
(USERRA) rights for servicemembers ordered to full time 
National Guard duty; and bring equity to our injured veterans 
by waiving the housing loan fees for certain veterans with 
service-connected disabilities called back to active service.
    Some of you might recall that last year I introduced 
legislation that would direct the Secretary of the VA to 
conduct a 5-year pilot project to expand on existing work study 
activities for veterans. Recognizing the need to address this 
important issue in the 111th Congress, I reintroduced H.R. 
1037, the ``Pilot College Work Study Programs for Veterans Act 
of 2009.''
    Currently, veterans that qualify for work study would be 
limited to working on VA-related work, such as processing VA 
paperwork, performing outreach services and assisting staff at 
VA medical facilities or the offices of the National Cemetery 
Administration.
    While providing a study workforce to assist the VA in day-
to-day activities is crucial in providing our student veterans 
with employment opportunities, my bill would allow veterans 
additional options of working in academic departments and 
student services. This change would put them on par with 
students that qualify for a work-study position under programs 
not administered by the VA.
    It is important that we continue to reevaluate existing 
programs and look into innovative ways to provide our veterans 
with expanded workforce benefits, education benefits and 
employment protections which the bills before us today seek to 
accomplish.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 23.]
    Ms. Herseth Sandlin. I now recognize Ranking Member Mr. 
Boozman for any opening remarks he may have on H.R. 1168, H.R. 
1172 or any of the other bills.

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you, Madam Chair. As you mentioned, we 
have seven bills to discuss today.
    We all know about the current unemployment situation. There 
was a recent article in a national news magazine that noted 
that there are currently 3 million job openings in the United 
States. Unfortunately, some job skills become irrelevant or 
obsolete with the passage of time. To address that issue I 
introduced H.R. 1168, which authorizes $100 million per year to 
provide a living stipend and moving assistance to veterans who 
have been unemployed for at least 4 months, who are not 
eligible for training or education under title 38 and are 
enrolled in the U.S. Department of Labor Retraining Program.
    The amount of the stipend would mirror that given to 
chapter 33 GI Bill participants. The moving assistance is 
intended to help a newly trained veteran who lives in an area 
of high employment to move to an area where there is a demand 
for the veteran's skills. It is my hope that H.R. 1168 will be 
a step toward providing veterans with new skill sets and the 
ability to relocate where jobs are.
    Madam Chair, each bill raises issues of importance to 
veterans and I am hopeful that today's witnesses will provide 
us with additional things to consider as we move forward. I 
want to work with you to ensure that we move as many of these 
as we can forward as possible, given any PAYGO restrictions we 
may face and yield back.
    [The prepared statement of Congressman Boozman appears on 
p. 23.]
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    I would like to welcome our panelists testifying before the 
Subcommittee today. The Chairman of the full Committee, Mr. 
Filner, may be joining us here shortly.
    We have the Honorable Mike Coffman of Colorado, Ranking 
Member Boozman, Congressman Perriello and Congressman Teague 
who also have bills under consideration today. They will be 
joining us at the dais here today along with Members of the 
Subcommittee and will be entering their written statements and 
any other statements they wish to make into the hearing record.
    Mr. Coffman, we will recognize you first. Welcome to our 
Subcommittee you are recognized on your bill.

 STATEMENT OF HON. MIKE COFFMAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Coffman. Thank you, Madam Chairman and Ranking Member 
Mr. Boozman.
    I introduced House Resolution 1879, the ``National Guard 
Employment and Protection Act,'' in order to extend the same 
reemployment protections given to National Guardsman, 
regardless of whether they are assigned to a Homeland Security 
mission or deployed overseas in Iraq or Afghanistan.
    Under current law, members of the National Guard who are 
called up to serve overseas have full reemployment rights 
granted by the Uniformed Services Employment and Reemployment 
Rights Act 1994, commonly referred to as USERRA, to meet any 
active-duty requirements, while those who are involuntarily 
called up to serve somewhere in the United States as part of a 
Homeland Security mission are not covered.
    USERRA places a maximum 5-year time limit that an employer 
is required by law to keep a position open for a returning 
member of the Guard or Reserve who has been mobilized to serve 
on active duty.
    The ``National Guard Employment and Protection Act,'' House 
Resolution 1879, would amend USERRA to authorize the Secretary 
of Defense to include members of the National Guard who are 
involuntarily recalled to Federal title 32 service for Homeland 
Security missions to receive the same USERRA reemployment 
protections as their counterparts who have been mobilized or 
are serving overseas.
    USERRA was designed to provide reemployment rights to 
returning members of the National Guard and Reserve after they 
were recalled to active duty under title 10, U.S. Code. The 
theory behind is USERRA is that the challenges imposed on the 
members of the National Guard and Reserve and their families 
would be unnecessarily compounded if they did not have 
reemployment rights with their civilian employers when they 
return from active duty. Their recruitment and retention of 
military personnel for these critical Guard and Reserve 
components of the U.S. Armed Forces would be extremely low 
without the reemployment protections given under USERRA.
    Training, Homeland Security and Defense missions fall under 
title 32 of the U.S. Code. Historically, the National Guard has 
been utilized in one of two categories to define their status 
when serving on active duty--title 32 and title 10. 
Traditionally, title 32 was reserved for training and State 
missions, and title 10 for mobilization to Federal active duty.
    Before 9/11, training and State missions were generally 
thought of as requiring relatively short periods of duty for 
civil disturbances, natural disasters, annual unit training, or 
for professional development course work. Training and State 
missions were never anticipated to be for a very long time. 
However, after the terrorist attack of September 11th, the 
Guard was tasked with Homeland Security defense and given new 
missions, such as security at airports and nuclear power plants 
and border patrol, and the Air Sovereignty Alert missions were 
greatly expanded.
    The current USERRA law was written before 9/11 happened. It 
never envisioned that a member of the National Guard would be 
called up to serve for an extended period of Federal duty in 
the United States. The law only assumed that a member of the 
National Guard would be called to active duty for an extended 
period of time to serve overseas. USERRA was written for 
Guardsman serving on active duty under title 10, and has never 
been amended for those called up under title 32, Federal Duty 
Status.
    All of the soldiers and airman serving in the National 
Guard must have the same reemployment rights irrespective of 
where or how they are ordered to serve. We need to recognize 
that those who are called up for Homeland Security missions can 
face the same hardships and challenges in trying to get their 
civilian employment back as someone who has been far away from 
their civilian occupation due to an overseas assignment.
    Eight years into fighting the Global War on Terror, we are 
starting to see an increasing number of National Guardsman 
serving in Federal title 32 status who are bumping up against 
the 5-year USERRA protection for their civilian jobs.
    According to the statistics provided by the National Guard 
Bureau, since 9/11, 6,984 of our citizen soldiers had been 
called up to perform Federal missions under title 32. There are 
currently 1,719 Guardsman performing duty under title 32 
orders.
    The Air National Guard has especially been impacted, 
particularly those airman performing the Air Sovereignty Alerts 
missions, such as the 140th fighter wing in my home State of 
Colorado. They are by no means alone in their situation.
    As this loophole in employment protection affects the 
entire National Guard, it is essential that we make sure all of 
our Nation's heroes are given adequate opportunity to support 
Federal missions without it affecting their civilian jobs, 
whether they are protecting our skies, helping save lives 
during a national disaster such as hurricane Katrina, enhancing 
our border security, or another Federal mission.
    There is no doubt that the National Guard is an essential 
part of the total force. America's National Guardsman should 
never be put in a position where they are forced to chose 
whether to support a critical mission such as a mission in 
supporting the Global War of Terror or return to work with 
their civilian employers in order to protect their jobs.
    If the National Guard Employment Protection Act of 2009 is 
not passed, National Guard members may be forced to chose 
between keeping their civilian jobs and serving our Nation. 
Unfortunately, this is already starting to occur and the 
problem will likely get worse as people near the current USERRA 
5-year job protection limit.
    The National Guard is performing critical Federal missions 
under title 32, and it is essential that this loophole be 
closed so that we protect those who serve to protect us.
    This legislation is fully supported by Enlisted Guard 
Association of the United States and the National Guard 
Association of the United States, and I have enclosed their 
letters of endorsement for the record. The National Guard 
Bureau and the U.S. Department of Defense (DoD) also favor 
closing this loophole to protect our national Guardsmen.
    Our citizen soldiers fight to protect our Nation and our 
freedom and the very least we can do is protect their rights to 
serve and retain their livelihood for themselves and their 
families.
    Thank you, Madam Chairman.
    [The prepared statement of Congressman Coffman and the 
attached letters, appears on p. 25.]
    Ms. Herseth Sandlin. Thank you Mr. Coffman. Thank you for 
your attention and commitment to our National Guardsmen and 
women.
    We have a series of votes, but we have time to recognize 
Mr. Perriello to speak on his bill, H.R. 1098.

         OPENING STATEMENT OF HON. THOMAS S. PERRIELLO

    Mr. Perriello. Thank you, Chairwoman and Ranking Member, 
for holding this important legislative hearing and giving us 
this opportunity to offer testimony in support of H.R. 1098, 
the `Veteran Workers' Retraining Act of 2009,'' or Vet Works 
Bill.
    According the U.S. Department of Labor and Bureau of Labor 
Statistics, the unemployment rate among veterans of Iraq and 
Afghanistan has reached a staggering 11.2 percent.
    H.R. 1098, legislation I introduced to the House on 
February 13th, 2009, will help to reduce this trend by 
providing 570,000 unemployed veterans and members of the Guard 
and Reserve with enhanced assistance in securing employment in 
today's challenging job market.
    H.R. 1098 increases and makes permanent the training 
benefit amount for on-the-job training or OJT. OJT provides an 
alternative to attending a college or university by allowing 
veterans to use their educational assistance entitlement to 
pursue a full-time program of apprenticeship or on-the-job 
training. This program allows veterans to become gainfully 
employed because their training will lead to an entry level job 
or better.
    Approved OJT programs must be between 6 months and 2 years 
in length and include programs for welders, painters, cooks, 
production equipment mechanic, auto mechanic, corrections 
officer, parts buyer, et cetera.
    The training benefit amount is based on a percentage of the 
basic full-time school rate. The Veterans Benefits Improvement 
Act of 2004 increased benefits for individuals pursuing 
apprenticeship or OJT. The increase was only temporary, 
however, from October 1, 2005, to January 1, 2008.
    On January 1, 2008, this provision expired and benefits 
were restored to the previous rate amount. H.R. 1098 will 
reinstate the benefit training rate amount established by the 
Veterans Benefit Improvement Act of 2004 and make it permanent.
    Prior to the expiration date of the provisions in the 
Veterans Benefit Improvement Act of 2004, the Department of 
Veterans Affairs proposed legislation that would have extended 
the temporary increase in the rates of payment to individuals 
pursuing apprenticeship and OJT programs. Additionally, the 
U.S. Department of Labor (DOL) has stated that jobs generally 
requiring this kind of training will account for half of all 
jobs by 2016.
    I can't tell you how many of our returning servicemen have 
said to me, ``I'm really excited to enter the job market. I'm 
not looking to go to a 4-year college. It's not what I feel 
called to do right now. I would really like to pick up a trade. 
This is the sort of training that could be the difference for 
me between no job or a job, or perhaps the difference between a 
minimum wage job and a living wage job.''
    This Congress, this Committee has done a great thing in 
modernizing the GI Bill for those who want to go to college. We 
need to do the same for those who feel called to pick up a 
trade and do the kind of apprenticeship programs that can be 
the difference for a family of economic security or 
unemployment.
    We have an obligation to help those who have defended our 
country by giving them the tools they need to rejoin the 
civilian workforce. H.R. 1098 is a common sense bill, which 
will provide America's veterans with the resources they need to 
join the workforce.
    I would like to thank all of the veteran service 
organizations (VSOs) assembled here today for their support of 
this effort and I look forward to working with you as the 
legislation progresses.
    I thank the Subcommittee for holding this hearing and look 
forward to answering any questions you may have.
    [The prepared statement of Congressman Perriello appears on 
p. 24.]
    Ms. Herseth Sandlin. Thank you, Mr. Perriello. The 
Subcommittee will now take a brief recess for the two votes 
that have been called and will resume in about half an hour.
    [Recess.]
    Ms. Herseth Sandlin. We will now reconvene. We will now 
invite Panel 2 to the witness table. Joining us on our second 
panel of witnesses is: Mr. Richard Daley, Associate Legislative 
Director for Paralyzed Veterans of America (PVA); Mr. John 
Wilson, Associate National Legislative Director for the 
Disabled American Veterans (DAV); Mr. Mark Seavey, Assistant 
Director, National Legislative Commission for the American 
Legion; Mr. Raymond Kelley, National Legislative Director for 
AMVETS; and Mr. Wade Spann of the Wounded Warrior Project 
(WWP).
    In the interest of time and courtesy to all of the 
panelists here today on this panel and the following, we ask 
that you limit your testimony to 5 minutes, focusing on your 
comments and recommendations. Your entire written statement has 
been entered into the Committee record.
    So with that, Mr. Daley, you are now recognized for 5 
minutes.

 STATEMENTS OF RICHARD DALEY, ASSOCIATE LEGISLATION DIRECTOR, 
   PARALYZED VETERANS OF AMERICA; JOHN L. WILSON, ASSOCIATE 
NATIONAL LEGISLATIVE DIRECTOR, DISABLED AMERICAN VETERANS; MARK 
 SEAVEY, ASSISTANT DIRECTOR, NATIONAL LEGISLATIVE COMMISSION, 
   AMERICAN LEGION; RAYMOND C. KELLEY, NATIONAL LEGISLATIVE 
  DIRECTOR, AMERICAN VETERANS (AMVETS); AND CORPORAL WADE J. 
          SPANN, USMC, ALUMNI, WOUNDED WARRIOR PROJECT

                   STATEMENT OF RICHARD DALEY

    Mr. Daley. Thank you, Chairwoman Herseth Sandlin and 
Ranking Member Boozman and Members of the Subcommittee.
    I am pleased to be here to express our feelings on several 
of these bills. In the interest of time, I will limit my 
remarks to three of the bills, but all of them are important, 
and I would like to see movement on all of the bills because 
they are a step forward for the veterans.
    The first one that I would like to discuss is H.R. 1037. It 
is legislation to establish a pilot program to expand the 
current scope of work study programs. It is supposed to be a 5-
year pilot program that will open up other positions that are 
available for other people in work study programs through the 
veterans and there is no reason why they shouldn't be able to 
help people in the accounting department or the library or any 
of the other functions within the university or school 
environment.
    In H.R. 1168, the ``Veterans' Retraining Act of 2009,'' 
unemployment is a problem with especially the Gulf War II 
veterans. It is at 11.2 percent. Gulf War I veterans, I don't 
have a specific number because they tend to merge that in with 
Gulf War II veterans and just say Gulf War veterans, that we 
know that there is probably--it is higher than the national 
average for Gulf War I veterans.
    This legislation could apply to them because their GI Bill 
has expired by now and they may not be eligible for any other 
rehabilitation programs, so this can help those veterans now 
that are in their late thirties or mid forties, to get some 
training and seek another career.
    And even the current veterans that are 21 years old, you 
know, when they are 37, they may need a career change and this 
would also help them.
    H.R. 1821, the ``Equity Injured Veterans' Act of 2009,'' 
PVA supports this, that would extend the period of eligibility 
for training and rehabilitation through the VA from the current 
12 years to 15 years. This would help veterans that must 
undergo a multi-year medical rehabilitation and that does 
happen, especially with people with spinal cord injuries.
    In preparation for this, I know a veteran back in the St. 
Louis area, Joseph Avalon, a member of PVA, a military marine, 
retired marine, but he is a high-level quadriplegic, and I met 
him when he first came into the Spinal Cord Unit at Jefferson 
Barracks.
    He has been going to college now. He is up and around and 
everything. He has adjusted to, after 9 years of being, you 
know, a power wheelchair. But he has finished his college 
degree and he is going to work on a graduate degree. But I 
said, ``Did you know that you won't be eligible for the Voc 
Rehab in another 2 years?''
    He said, ``No, I didn't know that.''
    Because he may need to take a computer course or something 
else to help his employment situation. And I said, well, there 
is legislation out there to extend it to 15 years, even though 
it probably shouldn't be any time at all if you are injured in 
the service like that, such as he was.
    The situation was, he was, him and Marines swimming in 
Hawaii with other Marines, and one of the guys was getting 
trouble and Joey jumped in, dove in to help save his fellow 
Marine, and from that point on he was a quadriplegic, that he 
is dealing with that very well.
    And H.R. 1172, we certainly support that, that directs the 
VA to establish an internet site for organizations, listing 
organizations for scholarships for veterans and their 
survivors. That would certainly get the use out of it. I was 
looking in the U.S. News--USA Today on Monday and they had a 
big article in there about the number of war veterans that are 
seeking their brides using the internet. They are over there 
and they are meeting people, and they are actually, when they 
come back from Iraq or Afghanistan, they are getting married. 
So they are very Internet savvy. So putting this information on 
the internet would certainly make it accessible for them.
    That concludes my testimony. I will be ready to answer 
questions when you have them.
    [The prepared statement of Mr. Daley appears on p. 28.]
    Ms. Herseth Sandlin. Thank you, Mr. Daley. Mr. Wilson, you 
are now recognized for 5 minutes.

                  STATEMENT OF JOHN L. WILSON

    Mr. John Wilson. Thank you. Madame Chairwoman and Members 
of the Subcommittee, on behalf of the 1.2 million members of 
the Disabled American Veterans, I am honored to present 
testimony addressing various bills before this Subcommittee 
today.
    In accordance with our Congressional Charter, the DAV's 
mission is to advance the interests and work for the betterment 
of all wounded, injured and disabled American veterans. We are, 
therefore, pleased to support various measures, insofar as they 
fall within that scope.
    The legislation under consideration today, I want to 
address two in my oral statement. The first is H.R. 1821 
introduced by Congressman Filner, which seeks to amend chapter 
31 of title 38, United States Code, to increase vocational, 
rehabilitation and employment assistance.
    Specifically, it increases the eligibility period from 12 
year to 15 years. It increases the allowance from 2 months to 6 
months and allows those participating in a vocational 
rehabilitation program who elect to pursue an approved program 
of education and receive monthly assistance.
    The monthly amounts received would be equal to the amounts 
eligible veterans receive for educational assistance of this 
title, including a monthly stipend. Reimbursements for 
childcare assistance up to $2,000 per month for single parents 
is also provided for veterans who are the sole caretaker of a 
child.
    DAV Resolution 246 seeks legislation extending vocational 
rehabilitation in excess of the 12-year limitation. This bill 
extends eligibility from 12 years to 15 years. Therefore, we 
are pleased to support the legislation presented today.
    Now, also, the second bill would be H.R. 2180 introduced by 
Congressman Teague, April of 2009, which waives the housing 
loan fees for certain veterans with service-connected 
disabilities called to active service.
    This legislation, although focused on veterans called to 
active duty as part of the Guard or Reserve who have and 
temporarily forego receiving disability compensation, readily 
applies to DAV Resolution 15 which calls to the repeal of all 
funding fees for VA home loans. A resolution notes that in 1990 
Congress imposed funding fees upon VA guaranteed home loans 
under budget reconciliation provisions.
    As a temporary deficit reduction measure, these fees are 
now a regular feature of all VA home loans, except for disabled 
veterans and un-remarried surviving spouses. The fees were 
increased, and at the present time may well continue so over 
the next 7 year.
    Their express purpose is straightforward, a way to generate 
additional revenue to cover the costs of improvements and cost-
of-living adjustments and other veterans' programs. Veterans 
have already paid a high price for freedom, however, and such 
benefits should not be bourne on the backs of their patriotism.
    The DAV has urged Congress to refrain from further 
increasing the VA home loan funding fees and to repeal these 
fees as soon as possible.
    Congressman Teague is taking a step in the right direction 
and is to be commended. In these difficult economic times, such 
legislative action goes far, reducing the burden felt by so 
may, particularly those who join the ranks of the military.
    Madam Chairwoman, this concludes my testimony on behalf of 
the DAV. I will be happy to answer any questions that you might 
have.
    [The prepared statement of Mr. John Wilson appears on p. 
30.]
    Ms. Herseth Sandlin. Thank you, Mr. Wilson.
    Mr. Seavey, you are recognized.

                    STATEMENT OF MARK SEAVEY

    Mr. Seavey. Madam Chairwoman, Ranking Member Boozman and 
Members of the Subcommittee, thank you for this opportunity to 
present the American Legion's views on the several pieces of 
legislation being considered by the Subcommittee today.
    The American Legion commends the Subcommittee for holding a 
hearing to discuss these important and timely issues. I will 
start with H.R. 1037, the ``Pilot College Work Study Programs 
for Veterans Act of 2009,'' which seeks to direct the Secretary 
of Veterans Affairs to conduct a 5-year pilot project to test 
the feasibility and advisability of expanding the scope of 
certain qualifying work study activities under title 38. The 
American Legion supports this pilot program.
    According to the Department of Labor, the present 
employment rate for recently discharged veterans is an alarming 
20 percent, and one out of every four of these veterans who do 
find employment earn less than $25,000 per year. The American 
Legion believes that this Work Study Program would provide 
needed job skills and experience for veterans, particularly 
those in non-skilled military occupational skills.
    H.R. 1098 seeks to amend title 38 to increase the amount of 
educational assistance payable by the Secretary of the VA to 
certain individuals pursing internships or on-the-job training. 
The American Legion supports this legislation as well. We 
believe that an increase in pay within the existing programs 
for on-the-job training will greatly benefit veterans who are 
pursuing internships in training with the necessary income that 
will provide for their daily and living expenses.
    H.R. 1168 would amend chapter 42 of title 38 to provide 
certain veterans with employment training assistance. The 
American Legion supports this legislation as well. The bill 
would provide veterans, especially recently separated veterans 
who are mission oriented, trainable, drug free and have great 
work ethic, with training that would prepare them to obtain 
gainful employment so they can financially provide for 
themselves and for their families.
    H.R. 1172 seeks to direct the Secretary of the VA to 
include on their Internet Web site a list of organizations that 
provide scholarships to veterans and their survivors. The 
American Legion supports this action as well.
    This additional scholarship information on VA's Web site 
would provide veterans and their survivors with centrally 
located resources that will assist them in their educational 
endeavors and ultimately help them to smoothly transition from 
active duty to the civilian workforce.
    H.R. 1821 amends chapter 31, title 38 to increase 
vocational rehabilitation and employment assistance. The 
American Legion supports the increase in pay for these eligible 
veterans. This legislation would provide veterans with 
increased allowances more closely aligned to financial benefits 
under the Post-9/11 GI Bill.
    The American Legion believes this legislation will greatly 
assist and encourage eligible veterans to remain in voc rehab 
programs, search for employment and assist with living 
expenses. Additionally, this bill will provide reimbursements 
for childcare to veterans who are participating in a voc rehab 
program and/or who are the sole caretaker of a child or 
children.
    H.R. 1879 seeks to amend title 38 to provide for employment 
and reemployment rights for certain individuals ordered to 
full-time National Guard duty. Today, reserved forces are 
operational forces and they fight side by side with active duty 
forces, bringing their unique skills and abilities to the 
modern battlefield.
    The American Legion believes that reemployment benefits due 
these National Guard warriors should be changed to reflect the 
new military reality. The American Legion supports this 
provision and the idea that all veterans be treated equally, 
regardless of their National Guard status in that an individual 
who is called to duty and serves honorably should receive these 
kinds of benefits.
    H.R. 2180 amends title 38 to waive housing loan fees for 
certain veterans with service-connected disabilities called to 
active service. The American Legion supports this initiative to 
waive housing loan fees for these service-disabled veterans so 
they and their families can move into quality housing and use 
these moneys for other necessary items or projects.
    The American Legion appreciates the opportunity to present 
this statement for the record. Thank you, Madam Chairwoman, 
Ranking Member Boozman and Members of the Subcommittee for 
allowing us to present our views on these important issues.
    Thank you.
    [The prepared statement of Mr. Seavey appears on p. 32.]
    Ms. Herseth Sandlin. Thank you, Mr. Seavey.
    Mr. Kelley, you are now recognized.

                 STATEMENT OF RAYMOND C. KELLEY

    Mr. Kelley. Madam Chairwoman, Ranking Member Boozman, 
Members of the Subcommittee. Thank you for the opportunity to 
appear before you today to provide AMVETS' views and discuss 
pending legislation.
    Multiple studies have shown that veterans are more likely 
to be unemployed or underemployed than their civilian 
counterparts and a small percentage of veterans who apply for 
chapter 31 benefits complete their program.
    I would like to share some statistics with you. Eighty-one 
percent of all servicemembers who are transitioning from the 
military to civilian life have some sort of uncomfortability 
with that transition. Sixty-one percent of employers don't know 
the skills that veterans possess. Fifty-two percent of 
companies use less than 2 percent of their recruitment budget 
to recruit veterans and that unemployment for veterans is 4 
percent higher than their civilian counterparts. That is the 
bad news.
    The good news is the bills that we are discussing today are 
taking a pretty good stab at removing some of those inequities. 
H.R. 1037 will greatly expand the scope of qualifying work 
study for veterans. By expanding this program, veterans will 
benefit by qualifying for jobs on campuses in which they 
attend, making it much easier to schedule work hours and class 
commitments. AMVETS strongly supports this legislation.
    On-the-job training and internships are a great way for 
pre-entry level job seekers to gain real world experience in a 
field, build their resume and network with companies that hire 
entry level employees. AMVETS supports H.R. 1098, increasing 
the assistance amount for veterans who are pursuing internships 
or on-the-job training is important in helping veterans who 
lack specific work experience in an occupational field.
    Many internships and on-the-job training opportunities are 
unpaid positions or only provide a small stipend. Also, many of 
these opportunities prevent participants from working other 
part-time jobs to sustain themselves. Making these humble 
increases to the benefit will increase the availability of 
veterans to find a secure career track and training tools 
without risking their ability to provide for themselves and 
their families while they transition from the military.
    The Department of Labor has identified 14 sectors that 
qualify as high-growth fields. AMVETS supports the spirit of 
H.R. 1168 and would recommend that the duration of payment be 
extended to cover the entire length of any approved training 
course.
    This will ensure two things. First, that veterans will have 
the financial means to complete training that lasts longer than 
6 months; and second, that veterans will not be limited to 
career fields that have training periods that last 6 months or 
less.
    AMVETS supports H.R. 1172. Providing a one-stop shop for 
scholarships will be beneficial to veterans as they are looking 
for scholarship opportunities. I do have a couple of 
recommendations, though, that in the legislation be added 
dependents and not just survivors. AMVETS, and I know that 
other organizations provide scholarships to dependents of 
living veterans and that that should be included as well.
    AMVETS also suggests that a vetting process occur to ensure 
that organizations that wish to post their scholarships meet 
the spirit of the bill. Also, providing a link to the National 
Association of State Directors of Veterans Affairs will provide 
easy access to these State veterans' benefits.
    AMVETS believes that one of the overlying causes of VR&E 
incompletion is financial. Increasing the living stipend will 
reduce the financial burden. Therefore, AMVETS supports the 
stipend increase provisions.
    However, we disagree with maintaining a delimiting period. 
There is no delimiting period for disabilities, and there 
should not be one for the service that is in place to ensure 
that wounded and injured veterans can gain and maintain 
meaningful employment.
    AMVETS also supports H.R. 2180 and H.R. 1879.
    Madam Chairwoman, thank you, again, for providing AMVETS 
the opportunity to present our views on these key pieces of 
legislation and this concludes my testimony and I would be 
happy to answer any questions that you have.
    [The prepared statement of Mr. Kelley appears on p. 33.]
    Ms. Herseth Sandlin. Thank you. Thank you.
    Corporal Spann, you're recognized.

           STATEMENT OF CORPORAL WADE J. SPANN, USMC

    Corporal Spann. Madam Chairwoman, Ranking Member Boozman 
and Members of the Subcommittee, I thank you for inviting me to 
address the Subcommittee today on several pending bills related 
to economic empowerment of our Nation's veterans.
    I am here today on behalf of the Wounded Warrior Project. 
Their goal is to make this generation of wounded veterans the 
most successful and well adjusted generation in veterans' 
history.
    My written testimony addresses all the bills before you 
today. However, I would like to speak only on H.R. 1821, which 
addresses the VR&E Program.
    My story begins on June 13th, 2004, when I was wounded by a 
roadside bomb outside of Fallujah when I was serving in the 
Marine Corps. From my sacrifices and from my disabilities, I 
gained a 70 percent disability rating.
    I went on to finish my third tour in Iraq. While on my 
third tour, I met another Marine who had gotten out, worked for 
the VA and then came back from the Marines, and he is the one 
that told me about the VR&E program.
    I was enrolled in the educational tract in April of 2007 
with a severe employment handicap. Last Friday, I proudly 
state, I graduated from the George Washington (GW) University 
with a degree in International Affairs.
    Let me say this. I state I like the VRE program. I am 
grateful for the VR&E program. I could not have attended the 
George Washington University had it not been for that program, 
but their subsistence levels are too low. For example, in my 
case, my monthly cost of living is about $2,000. I received 
about $1,100 for my disabilities and $540 per month from the 
VR&E subsistence rates.
    To cover the difference in that cost, I have worked 3 days 
a week as a bartender, every week while at school. This working 
did hamper my academic studies and it greatly affected my 
studies.
    H.R. 1821 is a step in the right direction. It gives me the 
choice to use the new GI Bill with the higher subsistence 
rates, but if I use that new GI Bill, there is a cap at the end 
of my tuition.
    Here is what this would have meant for me had I been going 
to GW during this. In Washington, the new GI Bill will pay $105 
per credit hour. It will also pay me $657 per term to cover my 
fees. Last semester I carried 15 credit hours.
    On the new GI Bill, this would give me about $2,232 per 
term for tuition and fees. The good news, my subsistence 
payments would be over $1,900 a month, but my subsistence would 
be more than enough to meet my monthly expenses.
    However, the George Washington University tuition is about 
$50,000 a year. So if I use the new GI Bill, I would have to 
pay about $45,000 out of my own pocket and simply any veteran 
getting out of the military or any American these days does not 
have $45,000 to pay for school.
    There are some good provisions in this bill that I want to 
include. As I represent the Wounded Warrior Project, we support 
extending the eligibility period from 12 years to 15 years. In 
addition, we also support extending subsistence payments from 2 
to 6 months after completing a VR&E tract.
    One final concern I have deals with the VR&E counseling and 
tutoring. I had very limited contact with my VR&E counselor, 
and I wish I had had some more. It would have given me the 
guidance that I needed sometimes.
    Also, the VR&E tutors are not sufficient enough for me to 
be at an academic level that I was at. I found that the GW 
University provided peer tutors that were more beneficial and 
better for my academics. To use the GW tutors, I moved near 
campus. That way I could be close to my student peers, tutors, 
and also my professors. This cost me about $1,000 a month in 
rent.
    In summary, I am very grateful for the VR&E program. The 
low subsistence payments almost made me quit many of times. If 
it was not for my family in this area, my fellow veterans and 
fellow VSOs in this area, I would have definitely not completed 
my education at the George Washington University.
    H.R. 1821 offers a partial remedy for letting me use the 
new GI Bill, but if I use that new GI Bill, my tuition is 
capped and which restricts my choice of schools.
    In summation, VR&E should provide a fair comprehensive 
package of monthly payments to cover training, tuition fees, 
subsistence and family living expenses through the first 6 
months of employment.
    Thank you, Madam Chairwoman and Members of the 
Subcommittee. I am happy to answer any questions that you may 
have.
    [The prepared statement of Mr. Spann appears on p. 35.]
    Mr. Perriello [presiding]. Thank you very much to all of 
you for your testimony. Before we go to questions, I am going 
to recognize Mr. Teague for a couple of minutes for an opening 
statement.
    Mr. Teague. Thank you, Mr. Chairman. Is this microphone on? 
Is it now?
    Mr. Perriello. Yes, sir.

             OPENING STATEMENT OF HON. HARRY TEAGUE

    Mr. Teague. Okay. Thank you, Mr. Chairman and Ranking 
Member Boozman and fellow Subcommittee Members. Thank you for 
allowing me to have the opportunity to speak on behalf of H.R. 
2180. I believe that this bill represents something that we can 
always use more of in government, a little common sense.
    In this case, that common sense is a simple fix that will 
ensure that disabled veterans will be able to receive 
assistance that they should have had all along. H.R. 2180 would 
amend title 38 of the United States Code to waive VA home loan 
fees for certain veterans with service-connected disabilities 
that have been recalled to active service.
    As you know, the Department of Veterans Affairs underwrites 
home loans that are made by private lenders to eligible 
veterans. The benefits of having a VA home loan are many. For 
example, the buyer is informed of reasonable value, the 
interest rate is negotiable and there are no mortgage insurance 
premiums. Veterans also have the right to prepay without 
penalty, and the VA provides assistance to veteran borrowers in 
default due to financial difficulty.
    Additionally, under title 38, section 3729, many disabled 
veterans and some injured soldiers qualify for a waiver of home 
loan fees. Unfortunately, however, a different part of the law, 
title 38, section 5304 prevents an eligible servicemember or 
veteran from receiving a home loan funding fee waiver if the 
veteran is called up back to active-duty service. My bill 
amends title 38 to close this hole in the Code and also 
eligible servicemembers to receive the fee waiver.
    Mr. Chairman, I simply think that it is wrong to expect 
someone who has served their country, and been injured as a 
result of that service, be penalized because we, as a 
government, are putting them back in uniform. This is an 
oversight in the law that must be repaired, and I thank the 
Committee for giving my bill a hearing. The cost of this bill 
would be very minimal and it complies with the PAYGO rules.
    H.R. 2180 represents a common sense solution to a problem 
that I do not think anyone anticipated. I believe that when the 
Congress established the VA home loan program, they had the 
best of intentions and created a wonderful opportunity for 
thousands of veterans that simply want their part of the 
American dream. With this bill, we can correct an oversight 
that will help even more veterans along the way. I would like 
to take this time to thank the staff members of the Economic 
Opportunity Subcommittee who lent their expertise during the 
drafting of this bill and thank Chairwoman Herseth Sandlin and 
Ranking Member Boozman for the opportunity to advance this 
bill.
    This concludes my testimony and I am happy to answer any 
questions you may have regarding H.R. 2180. Thank you.
    [The prepared statement of Congressman Teague appears on p. 
24.]
    Mr. Perriello. Thank you, Mr. Teague.
    I am going to return to the questions now and ask Ranking 
Member Boozman if he has questions for the panel.
    Mr. Boozman. Thank you, Mr. Chairman.
    Mr. Spann, in your testimony you stated that you believe 
H.R. 1168 was too costly and could affect other programs. Are 
you opposed to the bill because it would likely benefit older 
veterans who have few other opportunities to getting marketable 
skills?
    Corporal Spann. Can you repeat that question, sir?
    Mr. Boozman. In your testimony, you said that it was too 
costly and could affect other programs. I guess the question 
is, are you opposed because it would likely benefit older 
veterans that really don't have many opportunities as far as 
skill sets, to acquire skill sets, marketable skills?
    Corporal Spann. I understand the question. At this time I 
would like to defer to answering and take that question for the 
record.
    [The Wounded Warrior Project subsequently provided the 
following information:]

    Wounded Warrior Project commends Representative Boozman's intent 
with this legislation. WWP's position is that we neither support nor 
oppose H.R. 1168 at this time. As proposed, Congressman Boozman's bill 
contains limited information about the specifics of the program and 
does not reveal how the program's cost of $100 million would be paid. 
Accordingly, WWP is uncertain whether this bill could adversely impact 
existing or proposed VA programs which focus more specifically on 
Wounded Warrior Project signature initiatives intended to help our core 
constituency.

    Mr. Boozman. Thank you, Mr. Chairman. That is the only 
question I have. I appreciate you commenting on the bills as 
always. It is always very, very helpful. As we go forward, I am 
really pleased. I think that the Members of Congress have 
really come up with many suggestions in the form of these bills 
that we have to work with, that I think really offer the 
possibility of making veterans' lives a little bit easier, so 
thank you, Mr. Chairman.
    Mr. Perriello. Thank you, Mr. Boozman. I have a question 
for Mr. Wilson, but others may comment.
    Do you believe that the current method used by the VA to 
report the number of rehabilitated veterans is adequate or 
should we be looking to adhere to H.R. 1821, the proposal from 
Mr. Filner?
    Mr. John Wilson. Repeat the question again, please, sir.
    Mr. Perriello. Do you believe that the current method used 
by the VA to report the number of rehabilitated veterans is 
adequate, or should the VA adhere to the proposal in H.R. 1821 
that has been introduced by Chairman Filner?
    Mr. John Wilson. I would think that looking in our view 
that the current process is adequate and that H.R. 1821 seems 
to address an important issue of extending an eligibility 
period. We would like to see the delimiting period removed 
entirely, but have had no issue with how the VA currently 
identifies veterans who are eligible for participation.
    Mr. Perriello. It is possible to get the report earlier in 
the process of the rehabilitation?
    Mr. John Wilson. It is entirely possible, yes, sir.
    We always, we would hope for an earlier reporting whenever 
possible. That makes it easier to reach out to the veterans and 
provide them full assistance.
    But to properly address your question, I should take it 
under advisement and respond to your letter.
    [The information was provided in a Post-Hearing Question 
and Response for the Record, which appears on p. 42.]
    Mr. Perriello. Thank you.
    Mr. John Wilson. You are welcome.
    Mr. Perriello. Mr. Kelley.
    Mr. Kelley. Yes, Mr. Chairman. Currently under title 38, 
chapter 31, the VA Performance and Accountability Report, there 
is a discrepancy in the reporting. VA currently will, if a 
veteran drops out of VR&E without a plan of what they are going 
to do, that they don't take that into account within their 
reporting. That is why they have that 73 percent success rate, 
when in actuality it is in the high teens, low twenties.
    There needs to be some oversight on that to ensure that the 
proper amount of money is given to that program for success in 
the future.
    Mr. Perriello. Well, picking up on that question, Mr. 
Kelley, cited 18 percent. How does that compare to the world of 
rehabilitation more generally outside of the VA system?
    Mr. Kelley. I would have to go back and look at that. I can 
get that for you for the record, Mr. Chairman.
    [The information was provided in a Post-Hearing Question 
and Response for the Record, which appears on p. 43.]
    Mr. Perriello. All right.
    Mr. Teague, do you have any questions?
    Mr. Teague. Yes. Mr. Chairman, Ranking Member, thank you.
    I just have one question. It is for Corporal SPANN. Why do 
you feel that H.R. 2180 is unnecessary?
    Corporal Spann. You said H.R. 2180?
    Mr. Teague. Yes, H.R. 2180. In your testimony you stated 
that you didn't think it was necessary?
    Corporal Spann. You will have to forgive me on that. My 
memory escapes me on that. I would like to defer that answer 
and take that question for the record.
    [The Wounded Warrior Project subsequently provided the 
following information:]

    Representative Teague, as we stated in our written testimony, while 
we do not oppose this proposed legislation, we feel that all active 
duty servicemembers should be subject to the same VA loan fees 
regardless of disability status. We recognize and support the current 
laws which waive those fees for disabled veterans, including Guard and 
Reserve members, not on active duty. However, once called back to 
active duty, we feel that Guard and Reserve members should be treated 
as any other active duty servicemember. There are several instances of 
active duty regular servicemembers who have been disabled but who 
continue to serve. They must pay the VA loan fees. We simply feel that, 
as a matter of equity, all servicemembers on active duty should be 
subject to the same VA loan rules.

    Mr. Teague. Okay. Very well. Thank you. I have no other 
questions, Mr. Chairman.
    Mr. Perriello. I would like to thank all the Members of the 
panel for testifying before our Subcommittee. Your feedback on 
legislation today is appreciated. Your dedication to our 
Nation's veterans is appreciated. We look forward to those 
answers that will come back to us later and continue this 
dialog.
    Thank you very much and the panel is dismissed.
    There may be additional questions submitted by the staff 
and we will be in touch as those questions arise.
    We now invite Panel 3 to the witness table. Joining us on 
our third panel is: Mr. Keith Wilson, Director of the Office of 
Education Services, Veterans Benefits Administration (VBA), 
Department of Veterans Affairs, who is accompanied by Mr. John 
Brizzi, Deputy General Counsel for the Department of Veterans 
Affairs; and Mr. John McWilliam, Deputy Assistant Secretary, 
Veterans' Employment and Training Service for the Department of 
Labor.
    Your full written statements will be entered into the 
record as well. We will begin with Mr. Wilson. You are now 
recognized.

 STATEMENTS OF KEITH M. WILSON, DIRECTOR, EDUCATION SERVICES, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
AFFAIRS; ACCOMPANIED BY JOHN BRIZZI, DEPUTY ASSISTANT COUNSEL, 
OFFICE OF GENERAL COUNSEL, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
 AND JOHN M. MCWILLIAM, DEPUTY ASSISTANT SECRETARY, VETERANS' 
   EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF LABOR.

                  STATEMENT OF KEITH M. WILSON

    Mr. Keith Wilson. Good afternoon, Chairman Periello, 
Ranking Member Boozman and other Members of the Subcommittee. I 
am pleased to be here before you today to provide the 
Department of Veterans Affairs views on pending benefits 
legislation. I am accompanied today by Mr. John Brizzi of VA's 
Office of General Counsel.
    Two of the bills on the agenda today, H.R. 1168 and H.R. 
1879, affect programs or laws administered by the Department of 
Labor and we defer to DOL's views on those bills.
    H.R. 2180 would waive housing loan fees for certain 
veterans with service-connected disabilities called to active 
duty. VA supports this proposal. The law as currently written 
does create an inequity among groups of veterans. VA estimates 
that the costs of H.R. 2180, if enacted, would be small.
    H.R. 1821, the ``Equity for Injured Veterans Act of 2008,'' 
would amend chapter 31 of title 38 U.S. Code to extend the 
basic eligibility for use of voc rehab and employment 
assistance benefits under the chapter by an additional 3 years 
from 12 years to 15 years.
    VA supports, in principle, efforts to facilitate successful 
completion of voc rehab programs under chapter 31. Provisions 
within H.R. 1821 do have the potential to improve 
rehabilitation completion rates. The VA looks forward to 
working with the Committee to ensure the bill properly 
addresses the issues that impact veterans' ability to complete 
rehabilitation programs.
    We estimate that the impact of this--we estimate that the 
cost of this bill would be $43.8 million over the first year, 
$400 million over 5 years and $895.4 million over 10 years.
    H.R. 1037 would direct VA to conduct a 5-year pilot project 
to test feasibility and advisability of expanding the scope of 
the current work study program. Although VA supports the intent 
to expand the authorized work study activities, we are unable 
to support the bill.
    VA does not have the expertise or the resources to directly 
supervise, as required by law, the wide range of activities 
suggested, such as research assistants, lab assistant, tutors, 
et cetera, for positions located at non-VA offices. The success 
of the current work study program is largely due to 
participant's performance of VA-related functions under the 
direct supervision of VA.
    H.R. 1098 would increase by 10 percent the full-time 
monthly institutional rate for educational assistance allowance 
that is payable for apprenticeship or on-the-job training under 
certain VA education programs.
    VA is unable to support H.R. 1098 at this time. The bill 
would remove the annual cost-of-living increase for the chapter 
35, Dependent's Educational Assistance Program.
    Additionally, funding for such an increase in these 
benefits is not included in the Administration's fiscal year 
2010 budget. We will provide a full cost of the bill for the 
record.
    [The cost of the bill appears in the response to Question 2 
of the Post-Hearing Questions and Responses for the Record, 
which appears on p. 46.]
    H.R. 1172 would direct VA to include on the Internet Web 
site of the department, a list of organizations that provide 
scholarships to veterans and their survivors and a link to the 
Internet Web sites of such organizations. We understand and 
support the importance of veterans having all available 
information concerning scholarship programs available to them.
    However, as currently prepared, we do have concerns that 
maintaining such a list on the VA Web site would be problematic 
and not provide veterans the best available information. 
Therefore, we do not support the bill. We estimate that the 
cost of H.R. 1172, if enacted, would be insignificant.
    Mr. Chairman, this concludes my oral statement. I would be 
happy to entertain questions you or other Members of the 
Subcommittee may have.
    [The prepared statement of Mr. Keith Wilson appears on p. 
37.]
    Mr. Perriello. Thank you, Mr. Wilson.
    Mr. McWilliam, you are recognized.

                 STATEMENT OF JOHN M. MCWILLIAM

    Mr. McWilliam. Thank you, sir, Mr. Chairman, Ranking Member 
Boozman.
    Thank you for inviting us today to testify. I will restrict 
my remarks to those two bills that impact the Department of 
Labor and we defer to the Department of Veterans Affairs on the 
remaining bills.
    H.R. 1879, the purpose and sense of Congress in enacting 
the Uniformed Services Employment and Reemployment Rights Act 
1994 was to encourage non-career service in the uniformed 
services. To further this purpose, Congress limited to 5 years 
the cumulative time that an employer is required to support a 
servicemember's military absence.
    H.R. 1879 would amend USERRA to exempt from the 5-year 
limitation the service of National Guard members who are 
ordered to full-time duty, pursuant to 32 USC Sec. 502(f). The 
Department is confident that the Secretary of Defense is 
sensitive to the balance that civilian employers face in, both, 
supporting their employees who serve in the National Guard and 
operating a successful business. Therefore, we have no 
objection to this provision.
    H.R. 1168 would direct the Secretary of Labor to provide 
covered veterans a monthly training assistance allowance for 
each of 6 months in which they are enrolled in an employment 
and training program that teaches a skill in demand. The 
Department notes that this bill appears to establish an 
entitlement to this assistance, which is a concern in term with 
the long-term financial challenges the Nation faces. The 
assistance would be available without regard to the financial 
need of the veteran or the need for training to enhance his or 
her employment prospects.
    The Department also notes that veterans currently receive 
priority of service within the wide array of training programs 
available through the DOL-funded one-stop career center system.
    The Department would like to offer some thoughts on this 
implementation of this legislation. The Department would need 
to develop a system of certification and payment. The 
Department would need to explore various options to include the 
possibility of veterans' certification being done by veterans' 
employment specialists in one-stop career centers.
    The Department believes that the program's highest priority 
should be those eligible veterans who, without this benefit 
would be unable to obtain the training necessary to find a good 
job.
    Mr. Chairman, that concludes my statement. I would be happy 
to respond to any questions.
    [The prepared statement of Mr. McWilliam appears on p. 39.]
    Mr. Perriello. Thank you very much, Mr. McWilliam.
    Let me begin with Mr. Wilson. On February 13th, 2008, the 
Subcommittee held a hearing in which Mr. Keith Pedigo testified 
on behalf of the VA. In his testimony he proposed legislation 
that would extend the temporary increase in the rates of 
payment to individuals pursuing apprenticeship and OJT programs 
and recommended reinstatement of the benefit rate increase in 
support, making the increased payment.
    In today's testimony, the VA does not support H.R. 1098 
because it is not included in the fiscal year 2010 budget. The 
temporary increase was not included in the 2009 budget request, 
yet the VA did support the extension.
    Can you elaborate on what has changed?
    Mr. Keith Wilson. Yes. The core participants that we pay 
benefits to are paid under the chapter 30 program. The chapter 
30 participants under the OJT program did receive a 20-percent 
rate increase with enactment of the Post-9/11 GI Bill, so we 
believe that was a core important issue in terms of supporting 
the on-the-job training program.
    Additionally, the budget issues involved with the 2010 
budget, as indicated in my testimony, prohibit us from 
supporting further expansion.
    Mr. Perriello. You state that the success of the current 
work-study program under H.R. 1037, is largely due to 
participant's performing VA-related functions under the direct 
supervision of the VA. Why must the students be performing VA-
related functions?
    Mr. Keith Wilson. Under the current statute, that is the 
requirement, is that they are doing VA-related work under 
direct supervision of VA staff. That allows us to have a close 
relationship with the individuals that are performing the 
functions. It also gives us a level of expertise to monitor 
that they are doing work and we understand that the work that 
they are providing is valid work.
    Extending it beyond our expertise would challenge our 
ability to really provide the oversight that the statute 
requires as to provide to the program currently.
    Mr. Perriello. But why does the VA need to personally 
supervise the students in the work study program? Can the 
supervision be conducted by university officials with guidance 
from the VA, similar to other work study programs that many of 
us were part of?
    Mr. Keith Wilson. Under current statutes, that is not our 
understanding that that would be an option. It refers to direct 
supervision by VA.
    Mr. Perriello. Why is it that the Federal work study 
programs do not have direct Federal government oversight while 
the VA work study does?
    Mr. Keith Wilson. I would have to provide a response to the 
record. I don't have good information for that right now.
    [The information was provided in the response to Question 
#1 of the Post-Hearing Questions and Responses for the Record, 
which appears on p. 46.]
    Mr. Perriello. All right. With that, I am going to turn to 
the Ranking Member, Mr. Boozman, for his questions.
    Mr. Boozman. Thank you, Mr. Chair. I appreciate your 
comments about the evolving Disabled Veterans' Outreach 
Programs (DVOPs) and local veteran's employment representatives 
(LVERs) and the one-stop employment centers in the proposed 
program. Can you expand on that a little bit for me, Mr. 
McWilliam?
    Mr. McWilliam. Mr. Boozman, we were considering how to do a 
certification for the training. We would assume that most 
people who would be enrolled in this program, hopefully, would 
be also case managed by a DVOP or an LVER.
    So one of the initial responses we had to the proposed 
legislation was that certification could start with a DVOP or 
an LVER. We would certainly have to work that out in 
regulations, but that was an initial assessment that we had of 
the proposal.
    Mr. Boozman. Thanks.
    Mr. Wilson, wouldn't placing appropriate disclaimers on the 
proposed scholarship Web site stating the VA is not responsible 
for the accuracy or completeness of the listed scholarship 
address your concerns?
    Mr. Keith Wilson. It would provide some level of 
understanding, I guess, in the information that we would be 
linking to from our Web site. I believe that is correct.
    What we do want to do is make it as simple as possible for 
veterans to get information on the options that they have, and 
we don't want to duplicate other sources of that information. 
For instance, we are aware the Department of Education does 
have a Web site that has this type of information.
    We need to go into more detail to find out any differences 
between what the Department of Education does offer and what 
this proposal would offer. But recently my staff has been on 
that Department's Web site and did a search for veterans' 
scholarships, and we came up with about 120 hits, results from 
that search.
    Mr. Boozman. In your testimony regarding H.R. 1098, you 
said VA is unable to support the enactment at this time because 
funding for such an increase in these benefits is not included 
in the administration's fiscal year 2010 budget.
    I think we have these hearings in good faith, to try and 
really determine the merit of these bills. Are we in a 
situation now where if it is not in the President's budget, 
that VA--I am picking on you a little bit. I know it is not 
you, it is VA, and I think the Department of Labor is probably 
in the same situation, but are we in a situation now where if 
it is not in the budget, you are not for it?
    Mr. Keith Wilson. I think that is too broad to be an 
accurate statement. There are several things that would go into 
play concerning whether or not the administration would support 
pieces of legislation, taking into account the cost and the 
benefit that would be derived from the cost, so I would say 
that the answer would be no and that would not be a blanket 
approach on all issues.
    Our problems is if you look back, in talking to staff and 
people who have been around, if we have to sit back and wait 
for VA and the Department of Labor to come to us, very little 
has gotten done.
    My interpretation of this is it is a two-way street and it 
should help us in good faith, you know, determine the merits of 
these bills. And I think we have had that relationship in the 
past and I hope that we continue to have that relationship. I 
think it is really important, but our duty is to push these 
things forward with your help, with the VSO's help also.
    But, like I said, if we have to wait on you guys, it is not 
going to happen. Plus, it is our responsibility.
    If there is a money issue, then you need to tell us there 
is a money issue and then go from there. So that is my lecture 
for the day.
    Mr. Boozman. I understand. Thank you.
    Mr. Keith Wilson. Thank you.
    Mr. Boozman. Thank you, Mr. Chairman.
    Mr. Perriello. Thank you very much for making that 
important point, Mr. Boozman.
    Mr. Wilson--I know. I appreciate it. Don't think it went 
unnoticed.
    Mr. Perriello. In your testimony, Mr. McWilliam, you state 
that: ``Eligible veterans who, without this benefit, would be 
unable to obtain the training necessary to find a good job.'' 
Do you know how many veterans you would estimate fit into this 
category?
    Mr. McWilliam. No, Mr. Chairman, I do not. There is, as of 
April 2009, slightly over one million veterans who were 
considered unemployed. I do not know how many would fall into 
the category of this bill, ineligible for other benefits.
    Mr. Perriello. Mr. Wilson, in your testimony you state 
that: ``The childcare program is not tailored to those who 
would otherwise forego rehabilitation in the absence of 
government subsidized childcare assistance.''
    How should the program under H.R. 1821 be tailored in your 
mind?
    Mr. Keith Wilson. Yes. Those are specifically the type of 
things that we look forward to engaging with the Committee on. 
One of the things, for example, that jumps out at me on the 
childcare issue, is it is limited to sole provider, single 
veterans with children.
    Currently, we have about 98,000 participants in the voc 
rehab program, 1,000 of which are single veterans. So that 
would, I believe, beg the question of whether or not the 97,000 
that would not be covered under this would have similar needs, 
taking into account a lot of times we are living in an economy 
where we have two bread winners that are required to make ends 
meet.
    So those would be the type of things that we would welcome 
engagement on.
    Mr. Perriello. We look forward to that. Thank you very much 
for your time today. Thank you for your testimony, and thank 
you for all you do for our Nation's veterans. And with that, we 
will dismiss the panel.
    Before we adjourn today's hearing, I would like to thank 
all of our men and women in uniform who are currently serving 
in our Armed Forces, the veterans who have answered our 
Nation's call to duty, and particularly thank the families who 
have lost a loved one while in military service.
    While `thank you' is never enough to demonstrate our 
Nation's gratitude or their selfless service, I know that my 
colleagues and I in the Committee stand united in honoring 
their legacy.
    I would like to thank everyone for their statements this 
afternoon. We look forward to working with all of you as we 
continue to evaluate the suggestions that were provided to us 
today. I can assure you that we will continue to work together 
in bipartisan manner to review current programs, to determine 
if they meet the needs of veterans and their dependents, while 
we continue to look for new opportunities to strengthen and 
improve benefits.
    The hearing stands adjourned.
    [Whereupon, at 2:46 p.m. the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman, 
                  Subcommittee on Economic Opportunity

    Today we have seven bills before us that would address the unique 
needs of our veteran population. The bills before us today seek to: 
expand the VA's work-study program; increase the amount of educational 
assistance payments for individuals pursuing an apprenticeship or on-
job training; provide veterans with training assistance in employment 
sectors in high demand; authorize the VA to post a list of 
organizations that provide scholarships to veterans and their 
survivors; expand the services offered by the Vocational Rehabilitation 
and Employment Program; extend USERRA rights for servicemembers ordered 
to full-time National Guard duty; and bring equity to our injured 
veterans by waiving the housing loan fees for certain veterans with 
service-connected disabilities called back to active service.
    Some of you might recall that last year I introduced legislation 
that would direct the Secretary of the Department of Veterans Affairs 
to conduct a 5-year pilot project to expand on existing work-study 
activities for veterans. Recognizing the need to address this important 
issue in the 111th Congress, I re-introduced H.R. 1037, the Pilot 
College Work Study Programs for Veterans Act of 2009.
    Currently, veterans that qualify for work-study would be limited to 
working on VA related work such as processing VA paperwork, performing 
outreach services, and assisting staff at VA medical facilities or the 
offices of the National Cemetery Administration. While providing a 
student workforce to assist the VA in day to day activities is crucial 
in providing our student veterans with employment opportunities, my 
bill would allow veterans additional options of working in academic 
departments and student services. This change would put them at par 
with students that qualify for a work-study position under programs not 
administered by the VA.
    It is important that we continue to reevaluate existing programs 
and look into innovative ways to provide our veterans with expanded 
workforce benefits, education benefits, and employment protections 
which the bills before us seek to accomplish.

                                 <F-dash>
  Prepared Statement of Hon. John Boozman, Ranking Republican Member, 
                  Subcommittee on Economic Opportunity

    Good afternoon Madam Chair. We have a full slate of witnesses to 
provide their views on:

        <bullet>  Your bill, H.R. 1037, the Pilot College Work Study 
        Programs for Veterans Act of 2009 to expand the number and 
        types of work study positions at schools;
        <bullet>  H.R. 1098, Veterans' Worker Retraining Act of 2009, 
        introduced by Mr. Perriello, to restore the expired increased 
        payment rates for OJT and apprenticeship jobs;
        <bullet>  My H.R. 1168, Veterans Retraining Act of 2009, to 
        provide financial assistance to unemployed veterans undergoing 
        DoL training programs;
        <bullet>  My H.R. 1172, what I call the Tillman Scholarship 
        Initiative, to have VA list veterans scholarships on the VA Web 
        site;
        <bullet>  H.R. 1821, Equity for Injured Veterans Act of 2009, 
        introduced by Chairman Filner, to expand benefits provided 
        under the Vocational Rehabilitation and Employment program;
        <bullet>  Congressman Coffman's H.R. 1879, National Guard 
        Employment Protection Act of 2009 to exclude certain title 32 
        active duty from being counted against the 5-year limit under 
        USERRA; and finally;
        <bullet>  Mr. Teague's H.R. 2180, which waives loan guaranty 
        fees for certain veterans with service-connected disabilities.

    Madam Chair, we all know about the current employment situation. 
There was a recent article in a national news magazine that noted there 
are currently 3 million job openings in the United States. 
Unfortunately, some job skills become irrelevant or obsolete with the 
passage of time. To address that issue I introduced H.R. 1168 which 
authorizes $100 million per year to provide a living stipend and moving 
assistance to veterans who have been unemployed for at least 4 months, 
who are not eligible for training or education under title 38, and are 
enrolled in a U.S. Department of Labor re-training program.
    The amount of the stipend would mirror that given to chapter 33 GI 
Bill participants. The moving assistance is intended to help a newly 
trained veteran who lives in an area of high unemployment to move to an 
area where there is a demand for the veteran's skills.
    It is my hope that H.R. 1168 will be a step toward providing 
veterans with new skill sets and the ability to relocate to where the 
jobs are.
    Madam Chair, each bill raises issues of importance to veterans and 
I am hopeful that today's witnesses will provide us with additional 
things to consider as we move forward. I want to work with you to 
ensure that we move as many of these as possible given any PAYGO 
restrictions we may face and I yield back.

                                 <F-dash>
            Prepared Statement of Hon. Thomas S.P. Perriello

    Good Afternoon--Let me begin by thanking Chairwoman Sandlin and 
Ranking Member Boozman for holding this important legislative hearing. 
I appreciate the opportunity to offer testimony in support of H.R. 
1098, the Veterans Worker Retraining Act of 2009.
    According to the United States' Department of Labor, Bureau of 
Labor Statistics the unemployment rate among veterans of Iraq and 
Afghanistan is a staggering 11.2 percent.
    H.R. 1098, legislation which I introduced in the House on February 
13, 2009, will provide 570, 000 unemployed veterans and members of the 
guard and reserve enhanced assistance in securing employment in today's 
challenging job market.
    H.R. 1098 increases and makes permanent the training benefit amount 
for on-the-job training (OJT). OJT provides an alternative to attending 
a college or university by allowing veterans to use their educational 
assistance entitlement to pursue a full-time program of apprenticeship 
or on-the-job training. This program allows veterans to become 
gainfully employed since their training will lead to an entry level 
job. Additionally, while in training, they will receive wages from 
their employer. Approved OJT programs must be at least 6 months and can 
be up to 2 years in length. Some examples of OJT programs are welder, 
painter, cook, production equipment mechanic, auto mechanic, 
corrections officer, and parts buyer.
    The training benefit amount is based on a percentage of the basic 
full-time school rate. The Veterans Benefit Improvement Act of 2004, 
increased benefits for individuals pursuing apprenticeship or on-the-
job training. The increase was temporary, from October 1, 2005 to 
January 1, 2008. On January 1, 2008, this provision expired and 
benefits were restored to the previous rate amount. H.R. 1098 will 
reinstate the benefit training rate amount established by Veterans 
Benefit Improvement Act of 2004 and make it permanent.
    Prior to the expiration date of the provisions in the Veterans 
Benefit Improvement Act of 2004, the Department of Veterans Affairs 
proposed legislation that would have extended the temporary increase in 
the rates of payment to individuals pursuing apprenticeship and OJT 
programs. Additionally, the Department of Labor states that jobs 
generally requiring OJT training will account for half of all jobs by 
2016.
    We have an obligation to help those who have defended our country 
by giving them the tools they need to rejoin the civilian workforce. 
Again I thank the Subcommittee for holding this hearing and look 
forward to answering and questions you may have.

                                 <F-dash>
                Prepared Statement of Hon. Harry Teague

    Madam Chairwoman and Ranking Member Boozman and fellow Subcommittee 
Members, thank you for allowing me to have the opportunity to speak on 
behalf of H.R. 2180. I believe that this bill represents something that 
we can always use more of in government, a little common sense. In this 
case, that common sense is a simple fix that will ensure that disabled 
veterans will be able to receive assistance that they should have had 
all along.
    H.R. 2180 would amend Title 38 of the United States Code to waive 
VA home loan fees for certain veterans with service-connected 
disabilities that have been recalled to active service.
    As you all know, the Department of Veterans Affairs underwrites 
home loans that are made by private lenders to eligible veterans. The 
benefits of having a VA home loan are many. For example, the buyer is 
informed of reasonable value, the interest rate is negotiable, and 
there are no mortgage insurance premiums. Veterans also have the right 
to prepay without penalty, and the VA provides assistance to veteran 
borrowers in default due to financial difficulty.
    Additionally, under Title 38, section 3729, many disabled veterans 
and some injured soldiers qualify for a waiver of home loan fees. 
Unfortunately, however, a different part of the law, Title 38, section 
5304, prevents an eligible servicemember or veteran from receiving a 
home loan funding fee waiver if the veteran is called up back to active 
duty service. My bill amends Title 38 to close this hole in the Code 
and allow eligible servicemembers to receive the fee waiver.
    Madame Chairwoman, I simply think that it is wrong to expect 
someone who has served their country and been injured as a result of 
that service be penalized because we as a government are putting them 
back in uniform. This is an oversight in the law that must be repaired, 
and I thank the Committee for giving my bill a hearing.
    The costs of this bill would be very minimal, and it complies with 
PAY-GO rules. H.R. 2180 represents a common-sense solution to a problem 
that I do not think anyone anticipated. I believe that when the 
Congress established the VA Home loan program they had the best of 
intentions and created a wonderful opportunity for thousands of 
veterans that simply want their part of the American dream. With this 
bill we can correct an oversight that will help even more veterans 
along the way.
    I would like to take this time to thank the staff Members of the 
Economic Opportunity Subcommittee who lent their expertise during the 
drafting of this bill, and I thank Chairwoman Herseth-Sandlin and 
Ranking Member Boozman for the opportunity to advance this bill. This 
concludes my testimony and I am happy to answer any questions you may 
have regarding H.R. 2180.

                                 <F-dash>

 Prepared Statement of Hon. Mike Coffman, a Representative in Congress 
                       from the State of Colorado

    Purpose of Legislation: This bill would amend the Uniformed 
Services Employment and Reemployment Rights Act 1994 (USERRA) to 
authorize the Secretary of Defense to include Full Time National Guard 
Duty for possible exemption from the USERRA 5-year limit on service. 
The Secretary of Defense would be authorized to exempt National Guard 
service supporting critical homeland defense missions or other missions 
as deemed appropriate. Since USERRA already authorizes exemptions for 
service supporting critical active duty missions, this amendment would 
simply correct a disparity in the treatment of National Guard members.
    Background: Currently, certain types of active duty service are 
exempted from the 5-year reemployment limit under the Uniformed 
Services Employment and Reemployment Rights Act 1994 (USERRA). These 
exemptions cover service during a time of war or national emergency, 
support of missions where others have been ordered to duty under an 
involuntary call-up authority, and for other critical missions or 
requirements.
    After the events of September 11, 2001, voluntary active duty in 
support of Operation Noble Eagle (ONE) and Operation Enduring Freedom 
(OEF) were exempted from the USERRA 5-year limit on reemployment. 
However, full-time National Guard duty performed under Title 32 is not 
covered under those exemptions.
    As part of the new operational reserve construct, National Guard 
personnel will be used in ever-increasing numbers to support certain 
operational requirements while serving in a Title 32, full-time 
National Guard duty status. Indeed, section 512 of the Ronald W. Reagan 
National Defense Authorization Act for Fiscal Year 2005 (Public Law 
108-375) added a new chapter 9 to Title 32 to authorize this type of 
service. Despite this fact, there is no current authority under USERRA 
to exempt this type of National Guard service.
    Examples of National Guard employment when such a USERRA exemption 
might be appropriate include airport security following the terrorist 
attacks of September 11th, the southwest border security mission, 
Hurricane Katrina disaster response, and the Air Sovereignty Alert 
(ASA) /Combat Air Patrol missions defending the United States from air 
attacks. As we continue to pursue the Global War on Terror, and the 
National Guard continues to be utilized at an extremely high rate, even 
more of these missions may identify themselves.
    Conclusion: If the National Guard Employment Protection Act of 2009 
is not passed, National Guard members may be put into a position where 
they are forced to choose whether they support a critical mission, such 
as Katrina or a mission in support of the Global War on Terror, or 
return to work with their civilian employers. This is already starting 
to occur, especially to Air National Guardsmen doing the Air 
Sovereignty Alert mission, like those at the Like their counterparts 
supporting critical active duty missions, they should not be forced to 
make the choice of whether to keep their civilian jobs or support 
critical national security missions.
    The lack of a USERRA exemption for Title 32 Federal full-time 
National Guard duty is a clear disparity that needs to be addressed. 
The National Guard Employment Protection Act of 2009 will close this 
loophole and protect our citizen soldiers. This legislation is fully 
supported by the National Guard Association of the United States 
(NGAUS) and the Enlisted Guard Association of the United States 
(EANGUS).

                               __________
    Chairwoman Herseth Sandlin, Ranking Member Boozman, distinguished 
representatives of our Nation's Veterans' Service Organizations, thank 
you for the opportunity to be here to address your Subcommittee on an 
issue that seriously impacts our national Guardsmen. Today, I am proud 
to appear before this Subcommittee in support of a critical piece of 
legislation: The National Guard Employment Protection Act of 2009.
    At no time in America's history has the National Guard played such 
a critical role in the defense and security of our homeland. They also 
serve as full partners in the continuing War on Terror. According to 
the latest figures available from the Congressional Research Service, 
since September 11th over 299,177Army and Air National Guardsmen have 
been mobilized. Yet at the same time, the National Guard has continued 
its critical role in homeland security, homeland defense, emergency 
preparedness, and disaster response. Through its effort and expanding 
role, the National Guard has more than earned the right to be one of 
the highest priorities of the Department of Defense and the Congress.
    The National Guard's operations tempo has increased exponentially 
since September 11th, and the Federal duties they have been charged 
with have created a unique situation. Previously, National Guardsman 
were either called up or mobilized to perform Federal missions in Title 
10 active duty status, or they were in Title 32 State or training 
status. Yet after September 11th, it became increasingly apparent that 
there needed to be a mechanism to allow the National Guard to perform 
Federal missions in Title 32 status. This created a new, Federal Title 
32 duty status from the traditional Title 32 training.
    Unified State and Federal cooperative employment of the National 
Guard provides a uniquely powerful tool to address domestic security 
needs. Some examples of this type of Federal Title 32 duty are Air 
Sovereignty Alerts (ASA), which provides air defense for our Nation, 
airport security, operations in support of natural disasters such as 
Hurricane Katrina, fighting wildfires, and border security to name a 
critical few.
    More and more often, we see operations in which the Federal 
government provides the funds and the State Governors provide the 
authority and control to execute operations to secure the homeland. 
This means that a greater number of National Guardsmen are performing 
such duties, which unfortunately are not currently covered under 
Uniformed Services Employment and Reemployment Rights Act 1994 
(USERRA). Prior to September 11th, there were essentially no 
operational missions conducted by the National Guard under Title 32, so 
there was no loophole in the protection afforded National Guardsmen 
under USERRA.
    To address the loophole created by the new Title 32 Federal duty 
status, I introduced H.R.1879, the National Guard Employment Protection 
Act of 2009, with Congresswoman Madeleine Bordallo of Guam as my 
Democratic original cosponsor. The bill would amend the USERRA to 
authorize the Secretary of Defense to include Full-Time National Guard 
Duty for possible exemption from the 5-year limit on service. USERRA 
already authorizes exemptions for service supporting critical Federal 
active duty missions, this amendment would simply correct a disparity 
in the treatment of National Guard members.
    It is essential that we make sure all of our Nation's heroes are 
given adequate opportunity to support Federal missions, without it 
affecting their civilian jobs. Whether they are protecting our skies, 
helping save lives during a national disaster such as Hurricane 
Katrina, enhancing our border security, or doing another Federal 
mission, there is no doubt that the National Guard is an essential part 
of the Total Force. America's National Guardsmen should never be put in 
a position where they are forced to choose whether to support a 
critical mission, such as a mission in support of the Global War on 
Terror, or return to work with their civilian employers in order to 
protect their jobs.
    Eight years into fighting the Global War on Terror, we are starting 
to see a small but increasing number of National Guardsmen bumping up 
against their 5-year USERRA protection for their civilian jobs. 
According to statistics provided by the National Guard Bureau, since 
September 11th, 6,984 of our citizen soldiers have been called up to 
perform Federal missions under Title 32. There are currently 1,719 
Guardsmen performing duty under Title 32 orders. The Air National Guard 
has especially been impacted, particularly those airmen performing the 
Air Sovereignty Alert mission, such as the 140th Fighter Wing in my 
home State of Colorado. They are by no means alone in their situation, 
as this loophole in employment protection affects the entire National 
Guard.
    If the National Guard Employment Protection Act of 2009 is not 
passed, National Guard members may be forced to choose between keeping 
their civilian jobs and serving our Nation. Unfortunately, this is 
already starting to occur and the problem will likely get worse as 
people near the current USERRA 5-year job protection limit. The 
National Guard is performing critical Federal missions under Title 32 
and it is essential that this loophole be closed so that we protect 
those whose service protects us.
    This legislation is fully supported by the Enlisted Guard 
Association of the United States (EANGUS) and the National Guard 
Association of the United States (NGAUS) and I have enclosed their 
letters of endorsement for the record. The National Guard Bureau and 
Department of Defense also favor closing this loophole to protect our 
national Guardsmen. Our citizen soldiers fight to protect our Nation 
and our freedom and the very least we can do is protect their rights to 
serve and also retain livelihood for themselves and their families.
    I thank this Subcommittee for its serious consideration of the 
National Guard Employment Protection Act. I know all the Members of 
this Subcommittee share my commitment to the National Guard, and 
therefore strongly urge passage of this legislation.
                               __________
                    National Guard Association of the United States
                                                    Washington, DC.
                                                     March 10, 2009
The Honorable Mike Coffman
House of Representatives
1508 Longworth House Office Building
Washington, D.C. 20515

Dear Representative Coffman:

    Thank you for introducing the ``National Guard Employment 
Protection Act of 2009.''
    The service of our men and women of the National Guard ordered to 
full-time National Guard duty under Title 32 must be protected by the 
same reemployment rights under the Uniform Services Employment 
Reemployment Rights Act (USERRA) as are afforded our members ordered to 
active duty under Title 10.
    Although not readily visible to the American public and media, the 
men and women of the National Guard ordered to serve on full-time 
National Guard duty under Title 32 after September 1, 2001 are playing 
an indispensable role in maintaining the National Guard as a ready 
operational force in the Global War on Terror. As with the active 
forces, the sacrifice of these men and women involves spending extended 
periods away from civilian occupations. Upon completion of their duty, 
they should be protected by the same rights under USERRA as Reserve 
Component members serving on active duty under Title 10 able to return 
with certainty to their civilian jobs.
    NGAUS strongly supports the ``National Guard Employment Protection 
Act of 2009'' now before the 111th Congress, which would establish a 
national Guard Employment Protection Act that would apply the benefits 
of USERRA to individuals ordered to full time National Guard duty under 
section 502(f) of Title 32 on or after September 11, 2001.

            Sincerely,

                                                  Stephen M. Kopfer
                                     Brigadier General, USAF (Ret.)
                                                          President

                               __________
    Enlisted Association of the National Guard of the United States
                                                     Alexandria, VA
                                                     March 17, 2009
The Honorable Mike Coffman
United States House of Representatives
Washington DC 20515

Dear Representative Coffman:

    The Enlisted Association of the National Guard of the United States 
(EANGUS) is the only military service association that represents the 
interests of every enlisted solider and airmen in the Army and Air 
National Guard. With a constituency base of over 414,000 soldiers and 
airmen, their families, and a large retiree membership, EANGUS engages 
Capitol Hill on behalf of courageous Guard persons across this Nation.
    On behalf of EANGUS, I'd like to offer our letter of support for 
your legislation to amend Title 38 of the United States Code, the 
``National Guard Employment Protection Act of 2009.''
    The National Guard employees thousands of its members every day in 
a Title 32 full-time duty status. In essence, it is the backbone of the 
readiness of our units as they prepare to be mobilized and deploy to 
fulfill active duty missions through the world, and especially in Iraq, 
Afghanistan, and Djibouti.
    Codifying their reemployment rights as they serve in these full-
time National Guard tours of active duty is just the right thing to do, 
and import now that the National Guard has transitioned into an 
operational reserve. Further, it helps in the fulfillment of National 
Guard empowerment, the beginnings of which were passed into law (Public 
Law 110-181) in January 2008.
    Thank you for your continued support of our military and veterans. 
If our association can be of further help, feel free to contact our 
Legislative Director, SGM (Ret) Frank Yoakum, at 703-519-3846 x22.
    Working for America's Best!

                                   MSG Michael P. Cline, USA (Ret.)
                                                 Executive Director

                                 <F-dash>
 Prepared Statement of Richard Daley, Associate Legislation Director, 
                     Paralyzed Veterans of America

    Chairwoman Herseth Sandlin, Ranking Member Boozman, Members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to testify today on the various bills that have 
been introduced. We appreciate the efforts of this Subcommittee to 
address the different needs of the men and women who are currently 
serving in Iraq and Afghanistan and those men and women who served 
during past conflicts.

                               H.R. 1037

    PVA supports H.R. 1037. This legislation will establish a pilot 
program that will expand the current scope of the work-study program 
that is available under Title 38, United States Code, section 3485. 
This work-study program is important for veterans pursuing their 
education while maintaining other financial responsibilities that 
accompany the role of being an adult member of the community and a 
student at the same time. This legislation would create a 5-year pilot 
program for on-campus work-study positions that may include work in 
academic departments serving as tutors, research assistants, teaching 
assistants, and lab assistants or other positions in student services 
which include work in career centers and financial aid, campus 
orientation, cashiers, admissions, records, and registration offices. 
This pilot program will broaden the scope of positions available for 
the student veteran as it opens up the employment opportunities to 
equal the existing work-study positions available on campus through 
other programs. We hope this program will prove to be successful and 
become another option for the veteran before the 5 year expiration date 
of the program.
       H.R. 1098, the ``Veterans' Worker Retaining Act of 2009''
    PVA supports H.R. 1098. This legislation will increase the amount 
of educational assistance for veterans pursuing internships, or on-the-
job-training. This benefit can help a significant number of veterans 
that had a military occupation that did not transfer to the civilian 
job market, or veterans that may need additional training to convert 
their job skills to an employer's needs. This could be another tool for 
the Department of Labor's Disabled Veterans' Outreach Program (DVOP) 
and Local Veterans' Employment Representatives (LVER) as they work in 
their communities to explore and collaborate with employers to find 
suitable employment for veterans.
          H.R. 1168, the ``Veterans' Retraining Act of 2009''
    Unemployment is a problem among Iraq and Afghanistan veterans 
today. The downturn in the economy has been harder on the employment 
outlook for this group than the general public. As of March, the 
jobless rate for Iraq and Afghanistan veterans rose to 11.2 percent, or 
one out of every nine are unemployed. The current economic situation 
can account for part of this unemployment level, but it can also be 
attributed to service men and women leaving the military after years of 
performing a task that ultimately is not transferable to the civilian 
workforce. H.R. 1168 can help veterans as they pursue employment 
opportunities that require some re-training. However, we believe this 
legislation could apply to more employment situations if the maximum 
training assistance allowed was extended to 12 months, instead of the 6 
months as proposed in the legislation. Otherwise, PVA supports this 
legislation.

                               H.R. 1172

    PVA supports H.R. 1172. This legislation directs the VA to include 
on its Internet Web site a list of organizations that provide 
scholarships to veterans and their survivors. Most new veterans receive 
and communicate information through the Internet. Many new veterans 
rarely visit a public or college library, but most may have logged onto 
the Internet in the past 24 hours. Providing a list of organizations 
that offer scholarships to veterans and their survivors is an excellent 
idea. This initiative would seem to support the idea of greater 
outreach that PVA and all other veterans' service organizations have 
been advocating for the VA to conduct.
       H.R. 1821, the ``Equity for Injured Veterans Act of 2009''
    PVA supports H.R. 1821, a bill that would extend the period of 
eligibility for training and rehabilitation through the VA from the 
current 12 years, to 15 years. This would be helpful for veterans that 
must undergo a multi-year medical rehabilitation because of their 
service-connected injury. A veteran that has suffered a spinal cord 
injury, such as quadriplegia, could require years of rehabilitation 
before he or she is physically and psychologically ready to consider 
preparation for employment.
    This legislation also extends the subsistence allowance for a 
period of 6 months. Moreover, it includes a provision that provides for 
child care for the veteran who is the sole caretaker of a child while 
participating in a vocational rehabilitation program. Although this 
benefit seems like an insignificant addition to the benefits available, 
it could be the one component of the veteran's rehabilitation that 
determines the success or failure of that veteran's rehabilitation.
  H.R. 1879, the ``National Guard Employment Protection Act of 2009''
    PVA also supports H.R. 1879. This legislation will close a loophole 
that exists in the current protection under the Uniformed Services 
Employment and Reemployment Rights Act 1994 (USERRA) for employment for 
National Guard veterans when they return from active duty. A new 
activation status under Title 32, United States Code, does not protect 
National Guard members when activated to perform certain functions for 
national security. This legislation will include these National Guard 
members under the employment protections that exist for other veterans.

                               H.R. 2180

    The proposed legislation, H.R. 2180, would amend Title 38, United 
States Code, to waive housing loan fees for certain veterans with 
service-connected disabilities called to active service. Originally a 
veteran could qualify for the housing loan fees waiver because of their 
service-connected disability. Because that veteran is called back to 
duty, and accepts the responsibility to continue serving their country, 
the veteran loses their waiver. This legislation will correct this 
deficiency and help many disabled veterans.
    Chairwoman Herseth Sandlin, Ranking Member Boozman, Members of the 
Committee, I would like to thank you again for this opportunity to 
express our concerns on these important issues. I would be happy to 
answer any questions that you may have.
                                 <F-dash>
 Prepared Statement of John L. Wilson, Associate National Legislative 
                  Director, Disabled American Veterans
    Madam Chairwoman and Members of the Subcommittee:

    On behalf of the 1.2 million members of the Disabled American 
Veterans (DAV), I am honored to present this testimony to address 
various bills before the Subcommittee today. In accordance with our 
congressional charter, the DAV's mission is to ``advance the interests, 
and work for the betterment, of all wounded, injured, and disabled 
American veterans.'' We are therefore pleased to support various 
measures insofar as they fall within that scope.

                               H.R. 1037

    Congresswoman Herseth Sandlin introduced the Pilot Work Study 
Programs for Veterans Act of 2009 in February 2009, to direct the 
Secretary of Veterans Affairs to conduct a 5-year pilot project to test 
the feasibility and advisability of expanding the scope of certain 
qualifying work-study activities under title 38, United States Code. 
The pilot program would consider the work-study positions appropriate 
to academia, such as tutors or research, teaching, and lab assistants 
and in student services facilities positions in career centers and 
financial aid, campus orientation, cashiers, admissions, records, and 
registration offices. Regulations would be formulated by the Department 
to carry out the pilot project, including regulations providing for the 
supervision of work-study positions.
    The DAV has no resolution on this issue. Additionally, this 
legislation is outside the scope of the DAV's mission. We nonetheless 
have no opposition to its favorable consideration.

                               H.R. 1098

    Congressman Perriello introduced the Veterans' Worker Retraining 
Act of 2009 on February 13, 2009, to amend title 38, United States 
Code, to increase the amount of educational assistance payable by the 
Secretary of Veterans Affairs to certain individuals pursuing 
internships or on-job training.
    Although the DAV has no resolution on this issue, we support this 
legislation as it fits with one of our principles, which is vocational 
rehabilitation and/or employment to help disabled veterans prepare for 
and obtain gainful employment. An increase in the amounts of education 
assistance, given the economic downturn and the pace of inflation which 
has diminished the effectiveness of this program, is welcomed for those 
using the Montgomery GI Bill, Post-Vietnam Era Veterans Educational 
Assistance, Survivors and Dependents Educational Assistance or Selected 
Reserve Montgomery GI Bill.

                               H.R. 1168

    Congressman Boozman introduced the Veterans' Worker Retraining Act 
of 2009 on February 25, 2009, to amend chapter 42 of title 38, United 
States Code, to provide certain veterans with employment training 
assistance.
    This bill directs the Secretary of Labor to pay to each 
participating veteran a monthly training assistance allowance for each 
month a veteran is enrolled in an employment and training program that 
teaches a skill in demand, as determined by the Secretary. The amount 
of the training assistance allowance is the amount equal to the monthly 
amount of the basic allowance for housing for a member of the Armed 
Forces with dependents in E-5 pay grade.
    A participating veteran would be entitled to training assistance 
for not more than 6 months during each 10-year period beginning on the 
date in which the covered veteran first receives training allowance. In 
addition to the training assistance allowance, a participating veteran 
may receive up to $5,000 for moving expenses related to the veteran's 
receipt of training.
    A participating veteran would be defined as a veteran who is 
unemployed for not less than four consecutive months at the time of 
applying for training assistance under this section; able to 
successfully complete the employment and training program and 
ineligible for education or training assistance under this title.
    The DAV has no resolution on this issue. We nonetheless have no 
opposition to its favorable consideration as an increase in the monthly 
training assistance allowance along with the inclusion of up to $5,000 
for moving expenses is welcomed, given the economic downturn and its 
impact on so many veterans who have given so much for our country.

                               H.R. 1172

    Congressman Boozman introduced legislation in February 2009 to 
direct the Secretary of Veterans Affairs to include on the Web site of 
the Department of Veterans Affairs (VA) a list of organizations that 
provide scholarships to veterans and their survivors.
    Although the DAV has no resolution on this issue, we are not 
opposed to the favorable consideration of this legislation.

                               H.R. 1821

    Congressman Filner introduced legislation in March 2009 to amend 
chapter 31 of title 38, United States Code, to increase vocational 
rehabilitation and employment assistance.
    Specifically, it increases the eligibility period from 12 years to 
15 years. It also increases the allowance from 2 months to 6 months and 
allows those participating in a vocational rehabilitation program under 
this chapter to elect to pursue an approved program of education and 
receive assistance in monthly amounts to the extent that a veteran has 
remaining eligibility for and entitlement to assistance under this 
section, if the Secretary approves the educational, professional, or 
vocational objective chosen by such veteran for such program.
    The monthly amounts a veteran may receive are the amounts equal to 
the monthly amounts the veteran is eligible to receive for educational 
assistance of this title, including the monthly stipend. Reimbursement 
of child care assistance for single parents is also provided for 
veterans who are the sole caretaker of a child up to $2,000 per month 
for each month the veteran is participating.
    DAV Resolution No. 246 seeks legislation to allow an extension of 
vocational rehabilitation in excess of the 12 year limitation. This 
bill extends the current eligibility from 12 to 15 years and modifies 
exceptions for extensions. Therefore, the DAV supports the favorable 
consideration of this legislation.

                               H.R. 1879
 
   Congressman Coffman introduced the National Guard Employment 
Protection Act of 2009 in April 2009, to amend title 38, United States 
Code, to provide for employment and reemployment rights for certain 
individuals ordered to full-time National Guard duty.
    The DAV has no resolution on this issue. Additionally, this 
legislation is outside the scope of the DAV's mission. We nonetheless 
have no opposition to its favorable consideration.

                               H.R. 2180

    Congressman Teague introduced legislation in April 2009, to amend 
title 38, United States Code, to waive housing loan fees for certain 
veterans with service-connected disabilities called to active service.
    This legislation, although focused on veterans called to active 
duty as part of the Guard or Reserve and have to temporarily forgo 
receiving disability compensation, readily applies to DAV Resolution 
No. 015, which calls for the repeal of all funding fees for VA home 
loans. Our resolution notes that in 1990, Congress imposed funding fees 
upon VA guaranteed home loans under budget reconciliation provisions as 
a temporary deficit reduction measure and these fees are now a regular 
feature of all VA home loans, except for disabled veterans and un-
remarried surviving spouses. These fees were increased, and at the 
present time may well continue so for the next 7 years. Their express 
purpose is straightforward; a way to generate additional revenue to 
cover the costs of improvements and cost-of-living adjustments in other 
veterans' programs. We believe that veterans have already paid a high 
price for freedom and such benefits should not be borne on the back of 
their patriotism.
    The DAV has urged Congress to refrain from further increasing the 
VA Home Loan funding fees and to repeal these fees as soon as possible. 
Congressman Teague is taking a step in the right direction and is to be 
commended. In these difficult economic times, such legislative action 
goes far in reducing the burden felt by so many, particularly those who 
joined the ranks of the military.
    Madam Chairwoman, this concludes my testimony on behalf of DAV. We 
hope you will consider our recommendations. I would be happy to answer 
any questions Members of the Subcommittee might have.

                                 <F-dash>
    Prepared Statement of Mark Seavey, Assistant Director, National 
                Legislative Commission, American Legion

                           EXECUTIVE SUMMARY

    The American Legion supports H.R. 1037. The American Legion 
believes this work study program would provide needed job skills and 
experience for veterans so they transition seamlessly and obtain a 
quality-of-life after honorably serving the United States. The American 
Legion supports H.R. 1098. The American Legion believes the increase in 
pay within the Montgomery GI Bill, Post-Vietnam Era Veterans 
Educational Assistance, Survivors and Dependents Educational 
Assistance, and Selected Reserve Montgomery GI Bill, will greatly 
benefit veterans who are pursuing internships or on-the-job training 
with necessary income that will provide for their daily and living 
expenses. The American Legion supports H.R. 1168. This bill will 
provide veterans, especially recently separated veterans who are 
mission-oriented, trainable, drug-free, and have great work ethic, with 
training that will prepare them to obtain gainful employment so they 
can financially provide for themselves and their families. The American 
Legion supports H.R. 1172. This additional scholarship information on 
VA's Web site would provide veterans and their survivors with resources 
that will assist them in their educational endeavors and ultimately 
help them to smoothly transition from active duty to the civilian 
workforce.
    The American Legion supports H.R. 1821. This legislation will 
provide veterans with increased allowances more closely aligned to 
financial benefits under the Post 9/11 GI Bill. The American Legion 
believes this legislation will greatly assist and encourage eligible 
veterans to remain in vocational rehabilitation programs, search for 
employment, and assist with living expenses. Additionally, this bill 
will provide reimbursements for child care to veterans who are 
participating in a vocational rehabilitation program and/or the sole 
caretaker of a child (or children). The American Legion supports H.R. 
1879. Today, Reserve forces are operational forces and they fight side-
by-side active duty forces bringing their unique skills and abilities 
to the modern battlefield. The American Legion believes the 
reemployment benefits due these National Guard warriors should be 
changed to reflect the new military reality. The American Legion 
supports this provision and the idea that all veterans be treated 
equally regardless of their National Guard status in that an individual 
who is called to duty and serves honorably should receive these kinds 
of benefits. The American Legion supports H.R. 2180. The American 
Legion supports this initiative to waive housing loans fees for these 
service-disabled veterans, so they and their families can move into 
quality housing and use these moneys for other necessary items and/or 
projects.
                               __________
    Madam Chairwoman, Ranking Member Boozman, and Members of the 
Subcommittee:
    Thank you for this opportunity to present The American Legion's 
views on the several pieces of legislation being considered by the 
Subcommittee today. The American Legion commends the Subcommittee for 
holding a hearing to discuss these very important and timely issues.
    H.R. 1037, Pilot College Work Study Programs for Veterans Act of 
2009, seeks to direct the Secretary of Veterans Affairs to conduct a 5-
year pilot project to test the feasibility and advisability of 
expanding the scope of certain qualifying work-study activities under 
title 38, United States Code. The American Legion supports this pilot 
program. According to DOL the present unemployment rate for recently 
discharged veterans is an alarming 20 percent, and one out of every 
four veterans who do find employment earn less than $25,000 per year. 
Unfortunately, many of the thousands of servicemembers who are 
currently leaving the service are from the combat arms and non-skilled 
professions that are not readily transferable to the civilian labor 
market. The American Legion believes this work study program would 
provide needed job skills and experience for veterans so they 
transition seamlessly and obtain a quality-of-life after honorably 
serving the United States.
    H.R. 1098, seeks to amend title 38, United States Code, to increase 
the amount of educational assistance payable by the Secretary of 
Veterans Affairs to certain individuals pursuing internships or on-the-
job training. The American Legion supports this legislation. The 
American Legion believes the increase in pay within the Montgomery GI 
Bill, Post-Vietnam Era Veterans Educational Assistance, Survivors and 
Dependents Educational Assistance, and Selected Reserve Montgomery GI 
Bill, will greatly benefit veterans who are pursuing internships or on-
the-job training with necessary income that will provide for their 
daily and living expenses.
    H.R. 1168, would amend chapter 42 of title 38, United States Code, 
to provide certain veterans with employment training assistance. The 
American Legion supports this legislation. This bill will provide 
veterans, especially recently separated veterans who are mission-
oriented, trainable, drug-free, and have great work ethic, with 
training that will prepare them to obtain gainful employment so they 
can financially provide for themselves and their families.
    H.R. 1172, seeks to direct the Secretary of Veterans Affairs to 
include on the Internet Web site of the Department of Veterans Affairs 
a list of organizations that provide scholarships to veterans and their 
survivors. The American Legion supports this action. This additional 
scholarship information on VA's Web site would provide veterans and 
their survivors with resources that will assist them in their 
educational endeavors and ultimately help them to smoothly transition 
from active duty to the civilian workforce.
    H.R. 1821, amends chapter 31 of title 38, United States Code, to 
increase vocational rehabilitation and employment assistance, and for 
other purposes. The American Legion supports the increase in pay for 
eligible veterans. This legislation will provide veterans with 
increased allowances more closely aligned to financial benefits under 
the Post 9/11 GI Bill. The American Legion believes this legislation 
will greatly assist and encourage eligible veterans to remain in 
vocational rehabilitation programs, search for employment, and assist 
with living expenses. Additionally, this bill will provide 
reimbursements for child care to veterans who are participating in a 
vocational rehabilitation program and/or the sole caretaker of a child 
(or children).
    H.R. 1879, seeks to amend title 38, United States Code, to provide 
for employment and reemployment rights for certain individuals ordered 
to full-time National Guard duty. Today, Reserve forces are operational 
forces and they fight side-by-side active duty forces bringing their 
unique skills and abilities to the modern battlefield. The American 
Legion believes the reemployment benefits due these National Guard 
warriors should be changed to reflect the new military reality. The 
American Legion supports this provision and the idea that all veterans 
be treated equally regardless of their National Guard status in that an 
individual who is called to duty and serves honorably should receive 
these kinds of benefits.
    H.R. 2180, amends title 38, United States Code, to waive housing 
loan fees for certain veterans with service-connected disabilities 
called to active service. The American Legion supports this initiative 
to waive housing loans fees for these service-disabled veterans, so 
they and their families can move into quality housing and use these 
moneys for other necessary items and/or projects.
    The American Legion appreciates the opportunity to present this 
statement for the record. Again, thank you Madam Chairwoman, Ranking 
Member Boozman, and Members of the Subcommittee for allowing The 
American Legion to present its views on these very important issues.

                                 <F-dash>
Prepared Statement of Raymond C. Kelley, National Legislative Director, 
                       American Veterans (AMVETS)

    Madam Chairwoman, Ranking Member Boozman, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to provide AMVETS' views and discuss pending legislation on education 
and employment opportunities for veterans. AMVETS is pleased to see 
this Subcommittee's commitment to invest in the education and training 
of our veterans. Multiple studies have shown that young veterans are 
more likely to be unemployed or underemployed than their civilian 
counterparts, and it is the responsibility of each of us here today to 
ensure that our veterans are given every opportunity to succeed. 
Passing the legislation we are discussing today will only add to the 
prospect of educating, training and ensuring reemployment of the very 
few who have chosen to defend our Nation and way of life.
    The ``Pilot College Work Study Programs for Veterans Act of 2009'' 
will greatly expand the scope of qualifying work-study for veterans. 
Currently, title 38, section 3485, limits the work study positions to 
areas that provide services for Veterans Affairs. This policy greatly 
reduces the type and availability of work and the locations in which 
veterans can supplement their income. By expanding this program, 
veterans will benefit by qualifying for jobs on the campus in which 
they attend, making it much easier to schedule work hours around class 
commitments. With a VA expansion of this program to include campus 
jobs, VA will also offset the cost the college will pay to work-study 
veterans. This will offer cost-saving incentives to colleges to hire 
veterans for these positions. AMVETS strongly supports H.R. 1037.
    On-the-job training and internships are a great way for pre-entry 
level job seekers to gain real world experience in a field, build their 
resume and network with companies that hire entry-level employees. 
AMVETS supports H.R. 1098, the ``Veterans' Work Retraining Act of 
2009.'' Increasing the assistance amount for veterans who are pursuing 
internships or on-job training is important in helping veterans who 
lack specific work experience in an occupational field. Many 
internships and on-the-job training opportunities are unpaid positions 
or only provide a small stipend. Also, many of these opportunities 
prevent participants from working other part-time jobs to sustain 
themselves. Making these humble increases to the benefit will increase 
the ability of veterans to find and secure career track training tools 
without risking their ability to provide for themselves and their 
families while they transition from military service to civilian life. 
Without these opportunities, veterans will continue to be underemployed 
or unemployed at alarming rates.
    The Department of Labor has identified 14 sectors that qualify as 
``high growth'' fields. These sectors include high-tech fields such as 
biotechnology, aerospace, and geospatial technology as well as fields 
in healthcare, advanced manufacturing and energy. A 2006 GAO report 
found that ``roughly 700,000 veterans have been unemployed in recent 
months, a figure that could swell considerable with the anticipated 
increase in the numbers of people leaving active duty.'' \1\ Providing 
a living stipend that is equal to Chapter 33 entitlements for 
unemployed veterans who could be trained in any of these 14 sectors 
will ensure that veterans can sustain themselves and their families 
while they are being trained. AMVETS supports the spirit of H.R. 1168, 
but would recommend that the duration of payment be extended to cover 
the entire length of any approved training course. This will ensure two 
things: first, that veterans will have the financial means to complete 
the training if it lasts longer than 6 months, and second, that 
veterans will not be limited to career fields that have training 
periods that last 6 months or less.
---------------------------------------------------------------------------
    \1\ GAO-06-176 December 30, 2005.
---------------------------------------------------------------------------
    AMVETS supports H.R. 1172, the ``Pat Tillman Veteran's Scholarship 
Initiative.'' A lot of scholarship information can be found on VA's Web 
site, but there is no single page that houses this information. One 
must conduct a search to find scholarship information. AMVETS and many 
other organizations provide scholarships to dependents of active duty 
servicemembers and veterans. Therefore, AMVETS requests this bill be 
amended to add dependents and not just survivors. AMVETS also suggests 
that a vetting process occur to ensure that organizations that wish to 
post their scholarships meet the spirit of this bill. Also, many states 
have veterans' benefits that provide educational assistance to veterans 
and their family members, providing a link to the National Association 
of State Directors of Veterans Affairs will provide easy access to 
these state veterans' benefits.
    H.R. 1879, the ``National Guard Employment Protection Act of 
2009'', closes a loophole that excluded USERRA protection for National 
Guard members who are called to active duty for `federal duty' under 
title 32 for such things as border protection. It is important to 
provide employment protection for all of our servicemembers who are 
called to active duty, regardless of where they might serve. AMVETS 
wholly supports this bill.
    Vocational Rehabilitation and Employment (VR&E) benefits continue 
to have low rehabilitation rates. While there are multiple reasons for 
the low success rate of VR&E, AMVETS believes one of the overlying 
causes of veterans discontinuing their program is financial. Supporting 
themselves and possibly a family while in a rehabilitation program is 
tough at best. Providing an increased living stipend that is equal to 
chapter 33 benefits, and reimbursing childcare cost for qualifying 
veterans will greatly reduce the financial stress associated with 
participation in VR&E.
    AMVETS appreciates the extension of the period of eligibility under 
section 3103(a) of title 38, to 15 years, but as a member of the 
Independent Budget AMVETS believes there should be no delimiting period 
for rehabilitation. In this respect, VR&E should not be compared to 
educational benefits. VR&E is in place to provide independent living 
and employment training for service-connected disabled veterans. There 
is no delimiting period for disabilities and there should not be one 
for the service that is in place to ensure our wounded and injured 
veterans can gain and maintain meaningful employment. Also, AMVETS, in 
partnership with the Independent Budget, has concerns about VA's 
Performance and Accountability Reports that are submitted under title 
31. In 2006 VA reported a 73 percent rehabilitation rate, when in 
reality there was only an 18 percent success rate. The disparity in 
these rates is caused by VA not including veterans who discontinue the 
program without implementing a written rehabilitation plan. AMVETS 
requests that VA provide more accurate accounting of the program to 
ensure budget and resource decisions are consistent with real needs. 
AMVETS generally supports H.R. 1821, with the exception of maintaining 
a delimiting period.
    AMVETS supports H.R. 2180. There are many members of the Guard and 
reserves who are rated by VA for a disability and continue to serve and 
deploy in support of military operations. Their disability compensation 
is offset by their military pay. Amending section 3729(c)(1) of title 
38 will close a loophole that could cause these veterans to pay a loan 
fee.
    Madam Chairwoman, thank you again for providing AMVETS the 
opportunity to present our views on these key pieces of legislation. 
This concludes my testimony and I will be happy to answer any questions 
you may have.

                                 <F-dash>
  Prepared Statement of Corporal Wade J. Spann, USMC, Alumni, Wounded 
                            Warrior Project

    Chairwoman Herseth Sandlin, Ranking Member Boozman and Members of 
the Subcommittee:
    Thank you for inviting Wounded Warrior Project (WWP) to offer our 
views on these bills related to the economic empowerment of our 
Nation's veterans. Our organization has staff throughout the Nation 
assisting wounded warriors on a daily basis. This direct contact gives 
Wounded Warrior Project a unique perspective on the needs of wounded 
warriors as they reintegrate back into their homes, communities, 
educational institutions, job-training programs, and ultimately, the 
civilian workplace. Our goal is to ensure that this is the most 
successful, well-adjusted generation of veterans in our Nation's 
history. This perspective provides the framework for our testimony.
    While each of the bills under consideration reflects the thoughtful 
efforts by their sponsors to assist veterans as they transition to the 
civilian workplace, one in particular, H.R. 1821, addresses a Wounded 
Warrior Project signature issue. We support this legislation.

H.R. 1821

    Wounded Warrior Project offered testimony before this Subcommittee 
on April 2, 2009 regarding the current effectiveness of the Vocational 
Rehabilitation and Employment (VR&E) program. In that testimony, we 
stated our position that wounded warriors have earned their GI bill 
benefits by virtue of their service but have earned their VR&E benefits 
by virtue of their disability. We believe it essential that VR&E offer 
more than simply a repackaged version of the new GI bill to disabled 
veterans, and that VR&E benefits should be additive rather than 
alternative benefits. Additionally, we cited a number of improvements 
to the VR&E program which would help make the VR&E program the `crown 
jewel' of VA benefits programs. Chairman Bob Filner's bill, H.R. 1821 
takes an important step in that direction.
    To recap Wounded Warrior's recommendations, the VR&E subsistence 
rate must be brought into line with the new GI Bill, it must apply to 
the three employment tracks as well as the education track, it must be 
adjusted for the cost of living in each community, and it must extend 
beyond completion of the VR&E program of training.
    H.R. 1821 addresses some of these urgently needed improvements. As 
we understand the legislation's provisions, under H.R. 1821, any 
disabled veteran who enters the VR&E education track will be offered 
the option of receiving monthly educational assistance and monthly 
subsistence payments at either the VR&E rate or the new GI Bill rate. 
If the veteran chooses the chapter 33, or new GI Bill rate, he or she 
is then bound by all of the chapter 33 educational assistance 
limitations, including the cap on tuition and fees. In such a case, the 
higher chapter 33 subsistence levels would be paid. These payments 
would be based on the E-5 with dependents housing rate for the ZIP code 
where the educational institution is located. Individuals choosing the 
VR&E education track would have no cap on their educational assistance, 
but would receive the current VR&E subsistence payments which Wounded 
Warrior Project considers inadequate.
    Wounded Warrior Project supports H.R. 1821 as an interim measure to 
provide VR&E enrollees access to new GI Bill subsistence levels. 
However, the price paid for the higher subsistence levels under chapter 
33 is a cap on educational benefits. While the bill represents a 
significant improvement, it still falls short of the optimum solution, 
an increase in VR&E subsistence payments to at least chapter 33 levels 
within the structure of the current VR&E program without placing a cap 
on overall education assistance.
    Regarding the extended subsistence payments, Wounded Warrior 
Project supports the extension of monthly subsistence payments from two 
to 6 months for all VR&E tracks following the completion of approved 
training within each track. This improvement is long overdue and 
reflects a much more realistic transition period from education and 
training to fully employed, particularly in today's challenging job 
environment.
    Wounded Warrior Project also commends Chairman Filner's initiative 
to cover child care expenses within the VR&E program up to $2,000 per 
month. However, the provision is unnecessarily limited to apply to only 
sole caretakers of children. Disabled veterans--particularly severely 
disabled veterans--are often not sole caretakers. Child care expenses 
should be reimbursed for all VR&E enrollees. Further, a flat rate for 
child care, while an improvement, seems cumbersome. A per child rate, 
with a cost-of-living adjustment, would be more appropriate and would 
provide much greater piece of mind for many VR&E enrollees and their 
families.
    We support the extension of the VR&E eligibility period from 12 to 
15 months, and, though they are limited in scope, we also support the 
outcomes reporting requirements specified by the bill. Expanding these 
measurements to include average salary levels attained, continued 
employment at the one-, two-, and 5-year post-completion points, and a 
number of other longitudinal measures would greatly enhance the 
effectiveness of VR&E programs.
    While we commend Chairman Filner for addressing the urgent need to 
bring VR&E subsistence levels in line with the new GI Bill, we note 
that H.R. 1821 does not address several improvements we addressed in 
previous testimony which we feel are necessary to properly revitalize 
the VR&E program. For example, H.R. 1821 has no provision for the 
reimbursement of other than child care expenses such as job search 
costs, a professional clothing allowance, and travel costs for the 
interview process. The bill has no provision for improved VA outreach 
to better inform servicemembers about the benefits of the VR&E program, 
and it does not address the Independent Living program at all. These 
changes must be considered in the future to enable the VR&E program to 
reach its full potential in support of disabled veterans.

Other Legislation

Wounded Warrior Project offers the following comments on other 
legislation being considered today:

H.R. 1037. A bill directing VA to conduct a 5-year pilot project to 
test the feasibility of expanding the scope of work-study activities.

          While the empowerment aspects of the proposal seem 
        noteworthy, the bill does not provide sufficient information, 
        as currently written, to justify the expense. Wounded Warrior 
        Project would like to see a more detailed description of the 
        pilot project before supporting the bill.

H.R. 1098. A bill increasing the amount of assistance for individuals 
covered under the Montgomery GI Bill.

          While Wounded Warrior Project is fully supportive of 
        increased benefits for this population of veterans, the bill 
        does not directly affect our constituency.

H.R. 1168. A bill directing the Secretary of Labor to provide 
employment training assistance to unemployed veterans.

          While its intent is commendable, this legislation comes with 
        a $100 million price tag. Wounded Warrior Project is concerned 
        about the possible impact on other programs assisting 
        servicemembers and veterans.

H.R. 1172. A bill directing VA to include on its Web site a list, with 
links, of organizations that provide scholarships to veterans and their 
families.

          Wounded Warrior Project supports the intent of this 
        legislation which seems simple and straightforward. We defer to 
        VA on possible issues related to this legislation.

H.R. 1879. A bill to amend title 38 to provide for employment and 
reemployment rights for certain individuals ordered to full-time 
National Guard duty.

          This bill appears to fill a gap in previously passed 
        legislation to include National Guard personnel and, if that 
        interpretation is correct, Wounded Warrior Project supports 
        this bill in principle. However, we defer to VA on possible 
        unintended consequences related to this bill.

H.R. 2180. A bill to waive VA housing loan fees for certain veterans 
with service-connected disabilities called to active service.

          This bill would apply to disabled National Guard and Reserve 
        members called to active duty who, while still temporarily on 
        active duty, apply for a VA home loan. We believe active duty 
        servicemembers should be treated equally while serving on 
        active duty. We believe this bill is unnecessary; however, we 
        do not oppose it.

    Thank you, Chairwoman Herseth Sandlin, for the opportunity to 
address you today. I would be happy to answer any questions or provides 
responses for the record.

                                 <F-dash>
  Prepared Statement of Keith M. Wilson, Director, Education Service, 
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Madam Chairwoman and other Members of the Subcommittee, good 
afternoon. I am pleased to be here today to provide the Department of 
Veterans Affairs' (VA) views on pending benefits legislation. I am 
accompanied today by Mr. John Brizzi of VA's Office of General Counsel.
    Two of the bills on the agenda today affect programs or laws 
administered by the Department of Labor. We respectfully defer to that 
lead agency, and expect that it will best speak to the following bills: 
H.R. 1168, the ``Veterans Retraining Act of 2009,'' (providing 
employment training assistance for unemployed veterans) and H.R. 1879, 
the ``National Guard Employment Protection Act of 2009,'' (providing 
for reemployment rights following certain National Guard duty).

H.R. 1037

    H.R. 1037, the ``Pilot College Work Study Programs for Veterans Act 
of 2009,'' would direct VA to conduct a ``5-year'' pilot project to 
test the feasibility and advisability of expanding the scope of certain 
work-study activities for purposes of section 3485(a)(4) of title 38, 
including work-study positions available on site at educational 
institutions. These activities may include positions in academic 
departments, such as tutors and research, teaching, and lab assistants. 
Positions in the student services area could also be included, such as 
work in career centers, financial aid departments, admissions, records, 
and registration offices, and jobs performing campus orientation. VA 
would issue regulations pertaining to the pilot project and the 
supervision of the work-study students by appropriate VA personnel.
    Although VA supports the intent to expand the authorized work-study 
activities, we are unable to support the bill. VA does not have the 
expertise or resources to directly supervise the wide range of 
activities suggested (i.e. research assistants, lab assistants, tutors, 
etc.) for positions located in non-VA offices. The success of the 
current work-study program is largely due to participants performing 
VA-related functions under the direct supervision of VA.
    The bill only provides funding for 4 years, although it refers to a 
5-year pilot project--it authorizes appropriations totaling $40 million 
for fiscal years 2010 through 2013. Therefore, VA would only administer 
the pilot through the 4 years that funding is available. In addition, 
we note that the proposed legislation would generate additional 
workload for the VA. Thus, VA would need nine additional FTE in order 
to administer and process the additional work-study contracts. 
Accordingly, VA estimates that enactment of H.R. 1037 would result in 
additional GOE costs to the VA of $531,000 during the first year and 
$2.1 million over 4 years.

H.R. 1098

    H.R. 1098, the ``Veterans' Worker Re-training Act of 2009,'' would 
increase by 10 percent the full-time monthly institutional rate of 
educational assistance allowance that is payable for apprenticeship or 
other on-job training under the Montgomery GI Bill--Active Duty and 
Selected Reserve programs and the Post-Vietnam Era Veterans Educational 
Assistance program. It would further increase the educational 
assistance allowance for such training under the Survivors and 
Dependents Educational Assistance (DEA) program for the first 6 months 
of training, from $574 to $650; for the second 6 months of training, 
from $429 to $507; and for the third 6 months of training, from $285 to 
$366. The bill would also remove the annual cost-of-living increase for 
the DEA program. The provisions of H. R. 1098 would be effective on the 
date of enactment of the Act and the changes to the benefit amounts 
would be permanent. We note that participation levels would likely 
increase in the foregoing programs due to the benefit rate increase, 
but not by a significant margin.
    VA is unable to support the enactment of H. R. 1098 at this time 
because funding for such an increase in these benefits is not included 
in the administration's FY 2010 budget. We will provide our estimate of 
the cost of enactment of this bill for the record.

H.R. 1172

    H.R. 1172 would direct VA to include on the Internet Web site of 
the Department a list of organizations that provide scholarships to 
veterans and their survivors and a link to the Internet Web site of 
each such organization. We understand and support the importance of 
veterans having all available information concerning scholarship 
programs available to them. However, we are concerned that maintaining 
such a list on the VA Web site will not necessarily serve our Veteran-
students' best interests. By placing such a list on the VA Web site, 
students would often assume it is both all-inclusive and a final 
authority of information on available scholarships. However, VA has no 
authority to require organizations to notify VA when scholarships are 
offered or no longer offered. Therefore, the information would 
routinely be incomplete and/or inaccurate. Additionally, students may 
also incorrectly assume that VA has an oversight or approval function 
over the scholarships listed through the Department Web site. Such a 
list would largely duplicate the information most relevant to students 
which is normally available through student financial aid offices. We 
estimate that the cost of H. R. 1172, if enacted, would be 
insignificant.

H.R. 1821

    H.R. 1821, the ``Equity for Injured Veterans Act of 2009,'' would 
amend chapter 31 of title 38, United States Code, to extend the basic 
period of eligibility for use of vocational rehabilitation and 
employment assistance benefits under that chapter by an additional 3 
years--from 12 years to 15 years.
    The bill would amend chapter 31 to permit a veteran who is eligible 
for and entitled to receive assistance under that chapter to elect to 
pursue an approved program of education and receive assistance in 
monthly amounts that are equal to monthly amounts payable under new 
section 3313 of title 38, United States Code (including the monthly 
stipend provided under section 3313(c)(1)(B)).
    This legislation would increase the number of months that 
subsistence allowance may be paid to veterans receiving employment 
services under chapter 31--from 2 months to 6 months.
    The bill would, pursuant to regulations prescribed by the 
Secretary, authorize reimbursements of up to $2,000 per month for 
childcare for a chapter 31 participant who is the sole caretaker of a 
child.
    H.R. 1821 would also require VA to submit the following 
documentation in support of the President's budget for each fiscal 
year: (1) the percentage of veterans receiving assistance under chapter 
31 who became employed; (2) the percentage of veterans receiving 
assistance under chapter 31 who achieved independence in daily living; 
and (3) any changes made by the Secretary in measuring or calculating 
the performance of the Department under chapter 31.
    VA supports, in principle, efforts to facilitate successful 
completion of vocational rehabilitation programs under chapter 31, and 
we recognize that extending the basic period of eligibility under 
chapter 31, allowing participants to elect payment under the chapter 33 
rate, and authorizing the reimbursement of certain childcare costs 
incurred by chapter 31 participants will encourage more veterans to 
continue their rehabilitation programs. However, we cannot support H.R. 
1821 at this time. Recent changes to VA education benefits, including 
the new Post-9/11 GI Bill (chapter 33), may affect chapter 31 
participation and completion rates. In addition, as recommended by the 
Dole-Shalala Commission on Wounded Warriors, VA is currently completing 
a review of its compensation program that has implications for the 
vocational rehabilitation program. This changing landscape of 
comprehensive benefits prevents VA from adequately evaluating the 
provisions in this bill. In addition, the childcare reimbursement in 
particular is not tailored to those Veterans who would otherwise forgo 
rehabilitation in the absence of government-subsidized childcare 
assistance, since beneficiaries who may have existing childcare options 
available could also receive reimbursement. VA also cannot support this 
bill because no funding for such proposals is included in the 
administration's FY 2010 budget, and because of concerns we have with 
the bill as drafted. We are also concerned about the type of 
documentation this bill would require in support of the President's 
budget. VA currently reports the percentage of veterans who are 
rehabilitated as the number achieving suitable employment or 
independent living goals compared to the number of veterans whose cases 
were closed in either rehabilitated or discontinued status during that 
same period. VA is able to separate this data to account for those 
suitably employed versus those achieving independent living. However, 
VA does not believe that reporting this data as a percentage of those 
currently receiving assistance is an appropriate measure of program 
outcomes. Program participants may receive services over a period of 
several years. Therefore, VA believes that the percentage of successful 
outcomes based upon those veterans exiting VR&E after having been 
provided services vs. a snapshot of successful outcomes as a ratio of 
total program participants is a more accurate measure of program 
performance.
    We estimate that enactment of this bill would result in a benefits 
cost of $43.8 million during the first year, nearly $400 million over 5 
years, and $895.4 million for 10 years.

H.R. 2180

    H.R. 2180 would waive housing loan fees for certain veterans with 
service-connected disabilities called to active service. Under 38 
U.S.C. Sec.  3729(c)(1), housing loan fees are currently waived for 
veterans in receipt of compensation benefits and for those who would be 
eligible for such benefits if they were not receiving retirement pay. 
All other recipients of VA-guaranteed loans are required to pay the 
fee, including those whose compensation benefits are interrupted 
because they have begun receiving active duty pay. If H.R. 2180 were 
enacted, disabled veterans would no longer be penalized for being 
called to active duty and would be granted the same waiver as if they 
were receiving compensation benefits.
    VA supports this proposal. The law, as written, creates an inequity 
among groups of veterans. Those veterans who have been rated as having 
a compensable disability, but return to active duty, are precluded from 
receiving the waiver of the funding fee. However, a veteran who 
receives a similar disability rating, but does not return to active 
duty is able to have the funding fee waived.
    The number of individuals who serve a tour, receive compensation, 
and then return to active duty and obtain a VA home loan is extremely 
small. VA, therefore, estimates that the costs of H. R. 2180, if 
enacted, would be small.
    Madam Chairwoman, this concludes my statement. I would be happy to 
entertain any questions you or the other Members of the Subcommittee 
may have.

                                 <F-dash>
 Prepared Statement of John M. McWilliam, Deputy Assistant Secretary, 
  Veterans' Employment and Training Service, U.S. Department of Labor

    Chairwoman Herseth Sandlin, Ranking Member Boozman, and Members of 
the Subcommittee:
    Thank you for inviting us today to testify on several bills that 
have been introduced in the House of Representatives and referred to 
this Subcommittee.
    In the letter of invitation you asked us to address the following 
bills: H.R. 1037; H.R. 1098; H.R. 1168; H.R. 1172; H.R. 1821; H.R. 
1879; and H.R. 2180. Of those, only H.R. 1168 and H.R. 1879 pertain to 
the Department of Labor and I will restrict my remarks to those two 
bills. We defer to the Department of Veterans Affairs (VA) on the 
remaining bills.

H.R. 1879_To amend title 38, United States Code, to provide for 
        employment and reemployment rights for certain individuals 
        ordered to full-time National Guard duty.

    The purpose and sense of Congress in enacting the Uniformed 
Services Employment and Reemployment Rights Act 1994 (USERRA) was to 
``encourage non-career service in the uniformed services'' (38 U.S.C. 
Sec.  4301). To further this purpose, Congress limited to 5 years the 
cumulative time that an employer is required to support a 
servicemember's military absences. H.R. 1879 would amend USERRA to 
exempt from the 5-year limitation the service of National Guard members 
who are ordered to full-time duty pursuant to 32 U.S.C. Sec.  502(f), 
and that the Secretary of Defense designates as being exempt from the 
5-year limitation under USERRA. To accomplish this, the bill would add 
a new subparagraph (F) to the other 5-year limitation exemptions listed 
in 38 U.S.C. Sec.  4312(c)(4). The Department is confident that the 
Secretary of Defense is sensitive to the balance civilian employers 
face in supporting their employees who serve in the National Guard and 
also succeeding in their businesses, and therefore we have no objection 
to this provision. However, the bill should clarify that a particular 
502(f) assignment is exempt from the 5-year USERRA limitation of 
4312(c)(4)(F) only if the Secretary of Defense expressly designates in 
writing on the orders to duty that such duty qualifies under 38 U.S.C. 
Sec.  4312(c)(12)(F).

H.R. 1168_To amend chapter 42 of title 38, United States Code, to 
        provide certain veterans with employment training assistance.

    H.R. 1168 would direct the Secretary of Labor to provide covered 
veterans a monthly training assistance allowance for each of 6 months 
in which they are enrolled in an employment and training program that 
teaches a skill in demand. Covered veterans would include those who: do 
not qualify for VA's educational and training assistance under Title 
38, have been unemployed for 4 consecutive months, and can complete the 
training program. The amount of the assistance would be tied to the 
basic allowance for housing for an E-5 payable in the ZIP code area in 
which the veteran resides. The veteran would also be eligible for a 
$5,000 moving stipend.
    The Department notes that H.R. 1168 appears to establish an 
entitlement to this assistance, which is a concern in light of the 
long-term financial challenges the Nation faces. The assistance would 
be available without regard to the financial need of the veteran or the 
need for training to enhance his or her employment prospects.
    The Department also notes that veterans receive priority of service 
within the wide array of training programs currently available through 
the DOL-funded One-Stop Career Center system. Moreover, Pell grants and 
other financial assistance may also be available for unemployed 
veterans. As unemployed workers, these veterans may be eligible for 
unemployment insurance benefits as well.
    The Department, however, would like to offer some thoughts on this 
pending legislation. In the event this legislation is enacted and 
appropriations are provided, there are several issues that we will have 
to address prior to its implementation. For instance, the Department 
will need to develop a system of certification and payment. In 
addition, the Department will need to explore various options to 
include the possibility of veteran certification being done by 
veterans' employment specialists in One-Stop Career Centers. If the 
veteran is or has been in receipt of unemployment insurance or 
unemployment compensation for ex-servicemembers, then verification 
could be made from those respective records.
    The Department would need to work to develop a payment system, 
which would include collaborating with the Department of Defense to 
ascertain payment amounts under section 403 of title 37, United States 
Code.
    The Department believes this program's highest priority should be 
those eligible veterans who without this benefit would be unable to 
obtain the training necessary to find a good job.
    This concludes my statement, and I would be happy to respond to any 
questions.

                                 <F-dash>
                 Statement of Hon. Bob Filner, Chairman

    Thank you Chairwoman Herseth Sandlin and Ranking Member Boozman. I 
appreciate the opportunity to speak on H.R. 1821, Equity for Injured 
Veterans Act of 2009, which I introduced earlier this year.
    Throughout the history of our country our citizens have recognized 
the need to equip our servicemembers with the resources needed to 
complete their mission and reciprocate the same commitment to veterans 
that they have exemplified while in military service. Certainly, the 
Department of Veterans Affairs' Vocational Rehabilitation and 
Employment program is no exception to this change. From the time when 
vocational rehabilitation was provided to World War I veterans to the 
time it was formally created by Public Law 96-466, this important 
program has evolved to meet the unique needs of the time.
    Today, by including H.R. 1821 in this hearing we have shown that 
there is a need to reevaluate the VR&E program to provide and equip our 
most vulnerable veterans with the tools needed to succeed. 
Specifically, my legislation seeks to:
    Expand VR&E participation eligibility for a period of 15 years, 
from the current 12 years, allowing injured veterans the additional 
time needed to heal prior to seeking employment;
    Authorize the Secretary to pay subsistence allowance for a period 
of 6 months, from the current 2 months, while the veteran continues to 
satisfactorily follow a program of employment services after program 
completion;
    Provide an equitable housing stipend at the same levels as the new 
Post-9/11 GI Bill housing stipend recipients. Currently, disabled 
veterans who do not qualify for the Post-9/11 housing stipend, and are 
participating VR&E, will receive a lesser housing stipend even though 
their injury is any less grave;
    Authorize the Secretary to provide reimbursements for child care 
services. Providing VR&E participants the ease of mind that their 
children will be taken care of while they obtain the needed skills to 
enter the workforce is a major concern for veterans with children. I am 
confident that this section will help reduce the drop-out rate and 
encouraging program completion;
    Finally, my bill will require the Secretary to modify its VR&E 
reporting requirements as recommended by a recent Government 
Accountability Office report on VR&E.
    We must never forget the great debt we owe our veterans, especially 
those who have become injured while protecting our freedoms. H.R. 1821 
is a modest change to a program that will strengthen our Nation's 
commitment to serve our veterans with the same commitment and 
dedication with which they protected and served us.
    Madam Chair and Colleagues, I thank you for considering H.R. 1821 
in today's legislative hearing. I would be happy to answer any 
questions you may have.

                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                       May 26, 2009
Mr. Wade J. Spann
Alumni
Wounded Warrior Project
10 G Street, NE
Washington, DC 20002

Dear Mr. Spann:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Legislative 
Hearing on May 21, 2009. Please answer the enclosed hearing questions 
by no later than Thursday, July 2, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
                               __________
          Wounded Warrior Project Responses to Questions From
                Representative Stephanie Herseth Sandlin
            Chairwoman, Subcommittee on Economic Opportunity
                   House Veterans' Affairs Committee

                  LEGISLATIVE HEARING ON MAY 21, 2009

    Question 1: Can you explain how a flat rate for child care would be 
cumbersome, as stated in your testimony?

    WWP wishes to respond to this question in view of the revised 
language in the amendment in the form of a substitute that now 
constitutes H.R. 1821.
    First, we believe Vocational Rehabilitation and Employment (VR&E) 
coverage of child care expenses would be a significant enhancement to 
current VR&E benefits. We applaud the Chairman for addressing this in 
the amended bill.
    Secondly, we note the Bill now includes a ``means test'' to 
determine whether or not a sole caretaker VR&E participant should be 
reimbursed for child care expenses. WWP believes this provision 
obviates the need to restrict the reimbursement to sole caretakers 
since a means test, by definition, would corroborate need regardless of 
marital status. Accordingly, the bill should be amended to remove the 
sole caretaker limitation but retain the means test to determine 
whether or not child care expenses should be reimbursed.
    We thank the Chairman for his leadership in addressing this issue 
in the amended bill. Reimbursing child care expenses for those VR&E 
enrollees who would be unable to participate in the program without 
such payments is a sound one.

    Question 2: In your testimony you state that the Independent Living 
Program is not addressed at all. What should we be doing to properly 
address the Independent Living Program?

    The Vocational Rehabilitation and Employment (VR&E) program should 
be the ``crown jewel'' of VA benefits. Wounded Warrior Project believes 
the time has come to re-examine the entire VR&E program and develop a 
model VR&E program better suited to the needs of our newest generation 
of wounded warriors. Such an overhaul could improve the relevance and 
impact of all elements of the VR&E program, including the Independent 
Living program. We are currently writing a policy white paper which 
will propose such a model. We plan to work closely with VR&E senior 
staff and our field service teams who interact with VR&E enrollees 
daily throughout the country to propose a model program. We expect this 
study to be completed later this summer, and we would be happy to 
provide Chairwoman Herseth Sandlin a copy.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                       May 26, 2009
Mr. Raymond Kelley
National Legislative Director
AMVETS
4647 Forbes Boulevard
Lanham, MD 20706

Dear Mr. Kelley:

    I would like to request your response to the enclosed question for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Legislative 
Hearing on May 21, 2009. Please answer the enclosed hearing questions 
by no later than Thursday, July 2, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
                               __________
                        Question for the Record
               Hon. Stephanie Herseth Sandlin, Chairwoman
                  Subcommittee on Economic Opportunity
                  House Committee on Veterans' Affairs
                             May 21, 2009.
1. In the world of rehabilitation, is 18 percent a low number or an 
        acceptable rehabilitation rate for the VA?

    The short answer is 18 percent is in line with other vocational 
rehabilitation programs, but if 18 percent is acceptable why do these 
programs inflate their success numbers.
    At face value, both Veterans Affairs' Vocational Rehabilitation and 
Employment, Chapter 31 benefits program (VR&E) and state Vocational 
Rehabilitation (VR) programs appear to have high success rates that 
average in the mid 70 percentile. However, these percentages are not 
the actual rehabilitation rates. VR&E has more than 90,000 enrollees 
with just over 11,000 veterans achieving their rehabilitation plans. 
State VR programs have a similar ratio of successes to total number of 
program participants.
    VA and states arrive at their success rates in different manners. 
States follow the Federal Evaluation Standard with several performance 
indicators. The first performance indicator is the total number of 
rehabilitations. This number is calculated by the number of 
rehabilitations divided by the sum of the Individual Plan for 
Employments (IPE) signed in VR plus the number of Status 28 closures.
    Status 28 is the status for customers who must be closed as ``not 
rehabilitated'' after having been accepted for VR services and whose 
services under the IPE had already begun. On the basis of clear 
evidence, the counselor must determine that the customer cannot 
progress to the point of entering employment. Some examples of reasons 
for Status 28 closures include: death; no longer has rehabilitation 
potential (due to failing health, etc.); will not be employed in an 
integrated work setting; has left the state and has no job; or refuses 
further VR services.
    The real percentage of VR customers to achieve their IPE averages 
around 15 to 17 percent. Once the Status 28 customers are added it 
inflates the percentage to around 55 percent. The Federal Evaluation 
Standard for rehabilitation is 55.8 percent. The states then report the 
percentage of customers who have an employment outcome with an hourly 
wage at or above minimum wage for 35 or more hours per week from the 
55.8 percent, increasing the successful rehabilitations to 75 percent.
    VR&E arrives at its percentage rate in a different manner. VR&E 
starts with the number of veterans who are no longer receiving services 
under Chapter 31. For FY 2008, this number was 16,169. This number is 
arrived at by taking the total number of rehabilitations (11,066, FY08) 
and adding all discontinued veterans (5,103, FY08) then subtracting the 
Maximum Rehabilitations Gained (MRG) (1,550, FY08). This leaves 14,619 
veterans classed as rehabilitated or 75.7 percent rehabilitated. The 
three MRG categories are: (a) not employed and deemed unemployable; (b) 
employed but not following rehabilitation plan; (c) employable but not 
interested in seeking employment.
    In FY08 there were 91,735 veterans in VR&E with 16,169 leaving the 
program for one of three reasons: rehabilitation, discontinuing the 
program or being viewed as MRG. This accounts for 17.6 percent of the 
enrollees. VA does not disclose the average length of rehabilitation, 
nor do they indicate how many veterans are in their last year of 
eligibility. Under the assumption that a veteran has 4 years to 
complete his or her rehabilitation plan 25 percent, or 22,000, enrolled 
veterans would have used their entire Chapter 31 benefit in FY08. With 
11,000 completing their rehabilitation plan 50 percent of veterans in 
their last year of eligibility would be rehabilitated. Without complete 
data on the average months of usage and number of veterans who are in 
their last months of eligibility, finding an accurate rehabilitation 
rate is difficult at best.
    In the end, an 18 percent vocational rehabilitation plan 
implementation appears to be in line with other rehabilitation rates, 
but if it was an acceptable rate for either VA or state programs they 
would not disguise the true rate. AMVETS' larger concern is the method 
of performance reporting of Chapter 31 benefits programs under title 
31. Because of the appearance of a high success rate in reporting, 
Congress is not completely aware of the overall performance rate when 
making resource allocation decisions.
    Without clear accounting and understanding of why such a high 
percentage of Chapter 31 benefits program participants are classed as 
MRG and what can be done to retain these veterans in rehabilitation 
plan, VR&E will continue to be underfunded and appear deceptive in 
their reporting.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                       May 26, 2009
Mr. John L. Wilson
Associate National Legislative Director
Disabled American Veterans
807 Maine Avenue, SW
Washington, DC 20024

Mr. Wilson:

    I would like to request your response to the enclosed deliverable I 
am submitting in reference to our House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity Legislative Hearing on May 21, 
2009. Please answer the enclosed hearing questions by no later than 
Thursday, July 2, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.


                                Sincerely,Stephanie Herseth Sandlin
                                                         Chairwoman
                               __________
                       POST-HEARING QUESTION FOR
                ASSOCIATE NATIONAL LEGISLATIVE DIRECTOR
                                 OF THE
                       DISABLED AMERICAN VETERANS
                               BEFORE THE
                     COMMITTEE ON VETERANS' AFFAIRS
                 SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          AND MEMORIAL AFFAIRS
                 UNITED STATES HOUSE OF REPRESENTATIVES
                             JUNE 24, 2009

    Question: Do you believe that the current method used by the VA to 
report the number of rehabilitated veterans is adequate in the 
Vocational Rehabilitation and Employment report or should the VA adhere 
to the proposal in H.R. 1821? Is it possible to get an earlier report?

    Answer: VA currently reports the percentage of rehabilitated 
veterans as those who achieve either suitable employment or specific 
independent living goals. We believe the data currently reported by the 
VA is an effective measure of the success of the program.

    Regarding the question of earlier reporting, we believe the current 
reporting cycle is sufficient as it provides accurate and timely 
reporting of VR&E veteran participation.


                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                       May 26, 2009
Mr. Keith Wilson
Director
Office of Education Service
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Ave., NW
Washington, DC 20420

Dear Mr. Wilson:

    I would like to request your response to the enclosed deliverables 
I am submitting in reference to our House Committee on Veterans' 
Affairs Subcommittee on Economic Opportunity Legislative Hearing on May 
21, 2009. Please answer the enclosed hearing questions by no later than 
Thursday, July 2, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
                               __________
                        Questions for the Record
               Hon. Stephanie Herseth Sandlin, Chairwoman
                  Subcommittee on Economic Opportunity
                  House Committee on Veterans' Affairs
                              May 21, 2009
                          Pending Legislation

    Question 1: In your written testimony you state that the success of 
the current VA work-study program is largely due to participants 
performing VA-related functions under the direct supervision of the VA. 
Why is it that the Federal work-study programs do not have direct 
Federal Government oversight while VA work study does?

    Response: The Department of Veterans Affairs (VA) work-study 
program and the Federal work-study (FWS) are governed by different 
authorities. The Department of Education administers the FWS, and an 
institution participating in that program must follow the FWS statute 
and regulations as well as any applicable Federal, State, or local laws 
that govern employment. For example, an institution must follow the 
employment requirements issued by the Department of Labor or the 
requirements of the State where the student is employed that do not 
conflict with the FWS statute or regulations. Although the FWS program 
is a Federal financial aid program, it is also employment. Even though 
a student is awarded FWS based on financial need, if the student does 
not perform, he or she may be released from the job.
    An institution can employ an FWS student or have an agreement with 
an eligible off-campus agency to employ an FWS student. In either case, 
the student must have a supervisor who directly supervises the FWS 
student in the office that the student is placed. When an institution 
places a student with an eligible off-campus agency, the institution 
must only enter into an off-campus agreement with an agency that has 
professional direction and staff. The employer has the right to control 
and direct the services of the FWS student. Since the Department of 
Education does not supervise the FWS student, the institution is 
ultimately responsible for ensuring that each FWS student's work is 
properly supervised, regardless of the employer.
    Title 38 U.S.C. Sec. 3485 governs the VA work-study program. Unlike 
the FWS program, VA is required by statute to supervise the work-study 
program. Work-study participants must be eligible for one of the 
education programs administered by VA and must perform duties related 
to VA activities. The work-study students must work under the direct 
supervision and control of a VA employee but may be assigned to assist 
in outreach activities. A work-study student engaged in VA outreach 
activities may be located at a non-VA organization and supervised by an 
official of the non-VA organization, but only in a cooperative 
supervisory effort with a VA employee who controls the work activities. 
In this case, the non-VA organization supervisor will report the work-
study participant's hours worked to the supervisory VA employee. For 
students working at a VA facility, a VA supervisory employee is 
assigned to carry out the program.

    Question 2: On May 21, 2009, you were unable to provide a cost 
estimate for H.R. 1098. I ask that you provide the Subcommittee on 
Economic Opportunity a cost estimate for H.R. 1098.

    Response: Benefit costs for VA are estimated to be almost $12 
million during the first year, $61.2 million for 5 years, and $128.7 
million over 10 years. The total cost to be reimbursed by Department of 
Defense is $1.1 million the first year, $5.6 million for 5 years and 
$11.9 million over 10 years. Total benefit costs are estimated to be 
$13.1 million the first year, $66.9 million over 5 years, and $140.5 
million over 10 years.

    Benefits Methodology: Based on historical data, we projected the 
number of trainees for both apprenticeship and on-the-job training for 
fiscal 2010 through 2019. For the chapter 30 program, actual 
obligations for fiscal 2008 were taken from the VA computer output 
identification number GIB 021 September report. For the chapter 32, 35 
and 1606 programs, obligations were based on estimates provided by the 
Veterans Benefits Administration Education Service. Using obligations 
and data on the numbers of trainees, we calculated an average cost per 
trainee. We applied the cost-of-living adjustment commensurate with the 
fiscal 2010 President's Budget submission to derive the average 
benefits in the out-years. Obligations were calculated by taking the 
difference in the increase of the benefit payment (10 percent) for each 
year.


----------------------------------------------------------------------------------------------------------------
                                                             Cost to VA        Reimbursable        Total Cost
                      Fiscal Year                              ($000)          Cost ($000)           ($000)
----------------------------------------------------------------------------------------------------------------
2010                                                              $11,954             $1,102            $13,056
2011                                                              $11,990             $1,105             13,095
2012                                                              $12,182             $1,123             13,304
2013                                                              $12,413             $1,144             13,557
2014                                                              $12,674             $1,168             13,842
2015                                                              $12,940             $1,193             14,133
2016                                                              $13,212             $1,218             14,429
2017                                                              $13,489             $1,243             14,732
2018                                                              $13,772             $1,270             15,042
2019                                                              $14,062             $1,296             15,358
----------------------------------------------------------------------------------------------------------------
Total                                                            $128,686            $11,862           $140,548
----------------------------------------------------------------------------------------------------------------


                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                       May 26, 2009
Mr. John M. McWilliam
Deputy Assistant Secretary
Veterans' Employment and Training Service
U.S. Department of Labor
200 Constitution Avenue, NW.
Washington, DC 20210

Dear Mr. McWilliam:

    I would like to request your response to the enclosed deliverables 
and questions for the record I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
Legislative Hearing on May 21, 2009. Please answer the enclosed hearing 
questions by no later than Thursday, July 2, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
                               __________
             Response to Questions for the Record from the
                  House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                          Legislative Hearing
                              May 21, 2009
    Question 1: Can you elaborate on the system of certification and 
payment that would need to be developed if H.R. 1168 were to be 
enacted?

    Response: A system of certification and payment would need to be 
created that incorporates several steps:

        <bullet>  certifications of eligibility for each Veteran 
        applicant, to include determining that the applicant was 
        ineligible for other assistance under Title 38, is expected to 
        be able to complete the training, and, particularly, was 
        unemployed for 4 months at the time of applying
        <bullet>  identification of employment and training programs 
        that meet the definition of teaching a skill in demand
        <bullet>  determinations of enrollment by the Veteran in 
        employment and training programs
        <bullet>  identification of the ZIP code in which the Veteran 
        resides
        <bullet>  certification of payment

    Question 2: In your testimony you state that, ``eligible veterans 
who without this benefit would be unable to obtain the training 
necessary to find a good job.'' How many veterans fit into this 
category?

    Response: The Department believes this proposed training assistance 
should focus on helping those eligible veterans who need training to 
find a good job. As we noted in our testimony, there is already a wide 
menu of training-related assistance available to veterans, including 
those who are currently unemployed. However, there are an 
indeterminable number of veterans who are not only ineligible for other 
training assistance under Title 38, but may require this benefit in 
order to stay successfully enrolled in a training program. 
Unfortunately, we are unable to estimate the number of veterans who 
would fit into this category. Moreover, we do not have enough 
information available to know how many veterans simply do not enroll in 
Title 38 training, or considered enrolling, but were discouraged from 
doing so because they were unable to qualify for assistance, as these 
veterans would also fit into this category.
    What we can provide, however, is data from the three most recent 
program years on the number of veterans receiving training services 
through the Workforce Investment Act (WIA) Adult and Dislocated Worker 
formula grants, including the number that are receiving unemployment 
compensation, as well as those that are already taking advantage of the 
needs-related payment that is available through WIA. We can assume that 
veterans enrolled in WIA training for a high demand skill may seek this 
benefit were it to be enacted.

----------------------------------------------------------------------------------------------------------------
                                               Veterans--WIA Adult
-----------------------------------------------------------------------------------------------------------------
                                                      Program Year  2005  Program Year  2006  Program Year  2007
----------------------------------------------------------------------------------------------------------------
Total served                                                     16,312              52,916              59,584
----------------------------------------------------------------------------------------------------------------
% of total WIA Adult                                                6.6                 8.2                 7.8
----------------------------------------------------------------------------------------------------------------
UI Claimants                                                      3,051               5,189               5,920
----------------------------------------------------------------------------------------------------------------
Needs Based Payments                                                184                 216                 210
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                         Veterans--WIA Dislocated Worker
-----------------------------------------------------------------------------------------------------------------
                                                      Program Year  2005  Program Year  2006  Program Year  2007
----------------------------------------------------------------------------------------------------------------
Total served                                                     19,170              24,005              21,870
----------------------------------------------------------------------------------------------------------------
% of total WIA DW                                                     8                 8.5                  12
----------------------------------------------------------------------------------------------------------------
UI Claimants                                                      9,927               9,254               8,983
----------------------------------------------------------------------------------------------------------------
Needs Based Payments                                                109                  92                  83
----------------------------------------------------------------------------------------------------------------

                                  <all>

</pre></body></html>
